<html>
<title> - DEPARTMENT OF STATE BUDGET PRIORITIES FOR FISCAL YEAR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                 DEPARTMENT OF STATE BUDGET PRIORITIES 
                          FOR FISCAL YEAR 2004

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 13, 2003

                               __________

                            Serial No. 108-4

                               __________

           Printed for the use of the Committee on the Budget


  Available on the Internet: http://www.access.gpo.gov/congress/house/
                              house04.html

                     U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2003

85-019 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                        COMMITTEE ON THE BUDGET

                       JIM NUSSLE, Iowa, Chairman
CHRISTOPHER SHAYS, Connecticut,      JOHN M. SPRATT, Jr., South 
  Vice Chairman                          Carolina,
GIL GUTKNECHT, Minnesota               Ranking Minority Member
MAC THORNBERRY, Texas                JAMES P. MORAN, Virginia
JIM RYUN, Kansas                     DARLENE HOOLEY, Oregon
PAT TOOMEY, Pennsylvania             TAMMY BALDWIN, Wisconsin
DOC HASTINGS, Washington             DENNIS MOORE, Kansas
ROB PORTMAN, Ohio                    JOHN LEWIS, Georgia
EDWARD SCHROCK, Virginia             RICHARD E. NEAL, Massachusetts
HENRY E. BROWN, Jr., South Carolina  ROSA DeLAURO, Connecticut
ANDER CRENSHAW, Florida              CHET EDWARDS, Texas
ADAM PUTNAM, Florida                 ROBERT C. SCOTT, Virginia
ROGER WICKER, Mississippi            HAROLD FORD, Tennessee
KENNY HULSHOF, Missouri              LOIS CAPPS, California
THOMAS G. TANCREDO, Colorado         MIKE THOMPSON, California
DAVID VITTER, Louisiana              BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM COOPER, Tennessee
TRENT FRANKS, Arizona                RAHM EMANUEL, Illinois
SCOTT GARRETT, New Jersey            ARTUR DAVIS, Alabama
GRESHAM BARRETT, South Carolina      DENISE L. MAJETTE, Georgia
THADDEUS McCOTTER, Michigan          [Vacant]
MARIO DIAZ-BALART, Florida
JEB HENSARLING, Texas
GINNY BROWN-WAITE, Florida

                           Professional Staff

                       Rich Meade, Chief of Staff
       Thomas S. Kahn, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, February 13, 2003................     1
Statement of:
    Hon. Colin L. Powell, Secretary, U.S. Department of State....    11
Prepared statement and additional submissions of:
    Hon. Adam H. Putnam, a Representative in Congress from the 
      State of Florida...........................................     4
    Hon. Denise L. Majette, a Representative in Congress from the 
      State of Georgia...........................................     5
    Hon. Rosa L. DeLauro, a Representative in Congress from the 
      State of Connecticut.......................................     7
    Hon. David Vitter, a Representative in Congress from the 
      State of Louisiana.........................................     9
    Hon. Roger F. Wicker, a Representative in Congress from the 
      State of Mississippi.......................................    10
    Secretary Powell:
        Prepared statement.......................................    18
        Letter in response to Mr. Edwards' question regarding the 
          administration's veto on the U.N. Family Planning Funds    43
        Letter in response to Mr. Emanuel's question regarding 
          the United States' efforts to secure nuclear material..    55

       DEPARTMENT OF STATE BUDGET PRIORITIES FOR FISCAL YEAR 2004

                              ----------                              


                      THURSDAY, FEBRUARY 13, 2003

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:07 a.m. in room 
210, Cannon House Office Building, Hon. Jim Nussle (chairman of 
the committee) presiding.
    Members present: Representatives Nussle, Shays, Gutknecht, 
Thornberry, Hastings, Portman, Brown, Putnam, Wicker, Hulshof, 
Vitter, Bonner, Barrett, McCotter, Diaz-Balart, Hensarling, 
Brown-Waite, Spratt, Moran, Hooley, Baldwin, Moore, Lewis, 
Neal, DeLauro, Edwards, Scott, Ford, Capps, Thompson, Baird, 
Davis, Emanuel, and Majette.
    Chairman Nussle. The committee will come to order.
    This is the House Budget Committee hearing on the 
Department of State budget for fiscal year 2004.
    Before we begin, I would like to welcome Chris Shays to the 
committee. He has been appointed by the Speaker of the House to 
be the Speaker's representative on the Budget Committee. He is 
appointed as the vice chairman. We welcome Chris Shays from 
Connecticut and other members who have been appointed in the 
interim period.
    Today we are very pleased to have before us again the very 
distinguished Secretary of State, Colin Powell.
    Mr. Secretary, we look forward to hearing your testimony on 
the President's international affairs budget request for 2004. 
But before I begin I would like to thank you on behalf of all 
of us for you taking time to come to the Congress during what 
must be an amazing period of time, not only for our country, 
but for the Department of State, and we want to thank you. 
America is eternally grateful that you are where you are at 
this moment in our history, and we appreciate that.
    It goes without saying that you have a team behind you as 
well, and everyone at the Department of State is working 
overtime these days on Middle East peace, on the ongoing war on 
terrorism, the developing situation in Iraq, as well as a 
number of other functions carried out by the Department of 
State that don't make the headlines every day of the week. We 
thank you and appreciate all of the efforts of the fine people 
who work for the Department of State.
    Today we will look specifically at how the budget addresses 
the global war on terrorism, the proliferation of weapons of 
mass destruction, HIV/AIDS pandemic and other key initiatives 
of the Department of State.
    Mr. Secretary, as the global war on terrorism continues to 
unfold, the Department of State faces an increasingly complex 
task of maintaining and expanding support of the international 
coalition on the global war on terrorism and providing safe, 
secure, and functional facilities for the employees at 
diplomatic missions worldwide. Mr. Secretary, these are very 
challenging times, but there is no question that our Nation is 
being well served by the diplomatic team that the President has 
put together.
    Today we will also examine how the President's budget 
supports international assistance programs, including the 
increased economic and security assistance for our coalition 
partners and front-line states on the war against terrorism; 
expanding the Andean Counterdrug Initiative to stem the flow of 
cocaine and heroin from Colombia and its Andean neighbors; 
countering the spread of weapons of mass destruction through a 
new 10-year, $20-billion initiative and the G-8 Global 
Partnership Against the Spread of Weapons of Mass Destruction.
    The President's budget also includes the first installments 
toward an emergency plan for AIDS relief, a 5-year, $15-billion 
initiative to turn the tide in the global effort to combat HIV/
AIDS. This initiative virtually triples the United States' 
funding to fight the international AIDS pandemic.
    Mr. Secretary, I was just in Africa 3 weeks ago, had the 
opportunity to help lead a trade delegation to the AGOA 
Conference, the African Growth and Opportunity Act Conference.
    Let me just report to you, Mr. Secretary, first of all, I 
support the President's goals and initiatives with regards to 
AIDS and HIV. I was in Namibia in South Africa, visited AIDS 
clinics. There are 8 million--8 million orphan children in 
Africa, as the Secretary knows, but for my colleagues' benefit, 
8 million children that are orphans, no parents. One-fourth in 
some countries, one-third in many, and even one-half in some 
countries of the population has HIV.
    The human toll is obvious. In some areas, the goal is 
keeping mothers alive long enough to get their kids into 
school, if you can imagine that as the only goal they think 
being reasonable. Just keeping the kids--keeping the mothers 
alive long enough to get their kids to the school door.
    One of the, I think, lost arguments in favor of this 
program that I would just like to highlight for the Secretary 
and for my colleagues is that those 8 million children will 
grow up to be 8 million young adults in the not-too-distant 
future, and it will be a recruiting ground of unbelievable 
proportions for terrorism. That is why I believe we need to 
support what the President is doing.
    I would also like to add that food is an important issue 
here as well, as the Secretary knows; and I would just like to 
report to you, Mr. Secretary, that I am shocked at the level of 
scare tactics that are being used against foods enhanced 
through biotechnology on the African continent with absolutely 
no scientific data to back it up. There are 40 colonies of 
European nations that are using the scare tactics and the non-
tariff barrier scare tactics of the Europeans to actually 
prevent free food through nongovernment organizations from 
reaching starving people. They are dying as a result of the 
scare tactics that some in Europe are providing. It is an 
outrage, and I believe that this country should step forward.
    These are scare tactics without any scientific basis, and I 
support what the administration is doing to promote food 
getting to hungry people in the African continent. As the 
Secretary knows, the United States is first in the world--
before this budget was introduced, we are first in the world in 
our efforts to assist with regard to AIDS, HIV/AIDS, as well as 
food assistance to the African continent.
    So I just want to support what the Secretary has put 
forward. You testified about this last year, you put your words 
into deeds, and this budget is proof of that. And we appreciate 
the support that you are providing. We obviously have to find 
ways to pay for it. We have a budget that has needs in a number 
of other areas with deficits and challenges with regard to our 
economy, but that is the job of the Budget Committee, to make 
sure that that fits.
    Mr. Secretary, we face a possible war. Terrorist strikes 
are still very possible. We face challenges around the globe, 
as I was just talking about and you have talked about much more 
eloquently than I have with regard to Africa. With all of that 
facing us, we appreciate the time that you are spending with us 
today; and I look forward to your testimony.
    With that, I would turn to my friend and colleague, Mr. 
Moran, for any opening comments he would like to make at this 
time.
    Mr. Moran. Thank you, Mr. Chairman. Mr. Spratt will join us 
later. He is in a leadership meeting.
    Secretary Powell, you know that both sides of the aisle are 
members of your fan club, and we appreciate your leadership. 
This function in the budget is not generally the most 
politically popular, but it is a critical one, increasingly so. 
We are all united in this Nation's battle against terrorism. We 
know that we have to provide for our Nation's security 
foremost, and this budget and the activity that it supports are 
fundamental in that effort. Support for the international 
affairs budget starts right here in this committee, and you can 
be assured you will have our support in providing whatever is 
necessary to meet our Nation's goals.
    For appropriated international affairs programs, your 
request is about $29 billion, about $3 billion more than the 
administration's request for last year. I wish I could say more 
than was actually appropriated last year, but we don't have an 
appropriations bill. In fact, it is going to come to the floor 
today, the omnibus conference bill. You might tell us how you 
feel about that, if there are any particular problems in the 
State Department area. But it is an 11-percent increase over 
last year's request.
    We want to make sure two things, one, that the resources 
are adequate to support this Nation's foreign policy goals; and 
second, does it adequately represent the anticipated costs of 
our policies. I think many of us are concerned that it may not 
adequately reflect costs that we know are going to be incurred. 
For example, the budget doesn't include the humanitarian and 
reconstruction costs that would arise from a war with Iraq. So 
we are interested to know what your estimates are that--the 
cost that might be incurred, how long those costs might be 
expected to last, and what percentage of those costs is the 
United States likely to have to bear.
    Additionally, we know that there are discussions going on 
with a number of our allies about the possibility of additional 
foreign assistance in connection with the possible war with 
Iraq. Press reports--and it is not just press reports. Many of 
us have had meetings with people from Jordan, Turkey, and 
Israel. That seems absolutely clear that this budget does not 
reflect any additional assistance for that purpose.
    For example, the funding for Israel in the key accounts of 
foreign military financing and the economic support fund simply 
reflects the glide path that was established back in 1998, 
almost 5 years ago. For Jordan, the request includes no 
increase in the economic support fund relative to the 2003 
request and only an $8-million increase in foreign military 
financing. For Turkey, there is $50 million in foreign military 
financing and $200 million for the economic support fund, but 
we know, you know, we know, that there is going to be a much 
larger assistance package for Turkey. So we would like to know 
how much of that is anticipated in this budget, whether it be 
in a 2003 supplemental or in 2004.
    We had a defense appropriations meeting with Secretary 
Rumsfeld yesterday, and the thing that was most noticeable by 
its absence in his testimony was any money for Iraq. There is 
nothing in the defense budget for Iraq, and yet we hear reports 
that we are going to go to war within weeks, not months. We 
need to be prepared to know and particularly this budget 
committee needs to get some sense of what it is going to be 
required to provide in the way of financial resources.
    Now there are any number of other questions that I, and I 
know my colleagues on both sides of the aisle want to ask you, 
so at this point we ought to get into the testimony, but we 
would appreciate ensuring that this is as complete and candid 
an assessment of what resources Function 150 may need now and 
in the near future.
    Thank you, Mr. Secretary.
    Chairman Nussle. All members at this point in the record 
will have the opportunity to put in a statement.
    [The information referred to follows:]

 Prepared Statement Hon. Adam H. Putnam, a Representative in Congress 
                       From the State of Florida

    Mr. Chairman, I am pleased that we have convened today to receive 
the fiscal year 2004 budget priorities for the U.S. Department of State 
from Secretary Colin Powell. I am humbled and honored to be here with 
you, Ranking Member Spratt, and the rest of the committee, to exchange 
views on the State Department budget for the coming year. Thank you, 
Secretary Powell, for appearing today to discuss the needs of your 
Department in this era when it occupies the front lines in the war on 
terrorism. I want to commend you on your work and the work of all those 
at the Department that is so crucial in protecting American citizens 
from future acts of terrorism.
    The September 11 attacks shook this Nation's innocence about 
foreign threats, and your efforts have translated this renewed 
awareness into more resources for diplomacy. The painstaking work of 
foreign policy and the indispensable role that diplomacy plays in our 
strategic effort to win the war on terrorism unfortunately is still 
lacking from the general American awareness.
    Mr. Secretary, even as we convene here to discuss numbers and 
dollars, there is not a person in this room who is not aware that you 
are on the eve of a crucial deadline at the United Nations. While we 
discuss Iraq, North Korea, and the war against terrorism, I urge all of 
us to keep in mind the connection between the immediate crises and the 
broader question of our foreign policy capabilities. The ability of our 
military to defeat Iraq is without question. My concerns are related to 
our diplomatic position and our reputation with the world at large.
    Can we limit anti-American reactions to war in the Arab world? Can 
we secure allied participation in the work of reconstructing Iraq after 
a war? Successful answers to these questions depend largely on the 
diplomatic work done by your Department. They depend upon the work 
funded by the very budget that we discuss today.
    Mr. Secretary, we will do all that is necessary to win the war on 
terrorism. Our soldiers around the world are fighting--bravely, 
selflessly, and successfully. However, to continue to win the war 
against terrorism, the United States must use its economic and 
diplomatic capabilities to the same extent as its military 
capabilities.
    The investments made in recruiting, embassy security, foreign 
assistance, and other tools of foreign policy are very important. If we 
can commit greater resources, prevent the bombing of our embassies, 
secure peacekeeping efforts, and improve detection of terrorists 
seeking visas, then we are on the right track. Simultaneously, we need 
to ensure that weapons of mass destruction are not transferred to 
terrorists from nation-states, and that we continue to reinvigorate the 
world's commitment to freedom.
    We will win this war when the people of every nation unite and 
rally against the darkness of terrorism. When the terrorists' message 
of hate and intolerance no longer strikes a responsive chord in the 
world and states that harbor emerging threats no longer exist, we will 
have victory. Military force, no matter how well conceived and 
dedicated, cannot succeed alone. Military strength coupled with a 
strong and effective foreign policy will win this war on terrorism.
    Finally, Mr. Secretary, on a side note, I must express my utter 
disgust with the manner in which our European allies have treated their 
former African colonies with regard to food aid. The pressure they have 
exerted to prevent American food from reaching starving children 
because of a baseless concern over biotechnology is sinful. Words 
cannot adequately express my anger over this matter.
    Mr. Secretary, I look forward to your testimony and I am sure you 
will provide all of us with a clear picture of the State Department's 
will, capacity, and resources necessary to win the war on terrorism and 
advance the cause of freedom.

Prepared Statement and Questions for the Record Offered by Hon. Denise 
   L. Majette, a Representative in Congress From the State of Georgia

    Mr. Secretary, I would like to personally thank you for taking the 
time out of your schedule to come before this committee, particularly 
given the current state of foreign affairs. I applaud your current 
service and history of service to our Nation--and I do have my 
passport.
    Let me say for the record that I believe our foreign policy must 
have two components. First, there is a moral component. As the world's 
most prosperous and powerful nation, we have a moral obligation to use 
that wealth and power to promote high ideals. We must champion human 
rights, democracy and economic and social freedom. All those things 
that have made America great.
    Unfortunately, our record in this area is mixed. On the one hand, I 
am pleased to note that we are the world's leading provider of 
development assistance and the leading aggregate contributor to 
international institutions such as the U.N. and the International 
Atomic Energy Agency. We have done the hardest work in establishing 
peace around the world, often at the cost of American lives. Yet we 
have also failed to champion democracy and human rights at times when 
we should have. This is perhaps because of the second component of our 
foreign policy.
    The second component to our foreign policy is the national interest 
component. We most promote our national and economic security to 
preserve our way of life. The moral and national interest components to 
our foreign policy often conflict, or at least there is sometimes 
tension between the two. We see this most clearly in our relations with 
states like China or Saudi Arabia. The natural tension between these 
elements of our foreign policy has hurt us in our relations around the 
world. The promotion of our national interest over our moral 
obligations might explain why many in the Moslem world have failed to 
appreciate that American soldiers have shed blood in the defense of 
Moslems in places like Kosovo or Somalia. It might also explain why 
some of our traditional allies like France and Germany have forgotten 
that Americans died so that they could be free. It certainly must 
explain why the Pew Research Center reports that global criticism of 
the United States is on the rise.
    Mr. Secretary, I am convinced that there is a way we can balance 
the moral and national interest components of our foreign policy in a 
way that will reaffirm our status as the world's beacon of democracy. 
Yet I am concerned that we may not be doing enough in the budget you 
have presented today to achieve this balance.
                                  iraq
    Question--This Nation is preparing to spend billions in an effort 
to bring about regime change in Iraq, but is it also prepared to spend 
the billions necessary to restore Iraq in its aftermath?
    Answer--The United States is committed to assist the Iraqi people 
in the reconstruction and development of their nation once Saddam 
Hussein is no longer in power. Iraq's liberation would be the 
beginning, not the end of our commitment to its people. We will supply 
humanitarian relief, bring economic sanctions to a swift close, and 
work for the long-term recovery of Iraq's economy. The United States 
will ensure that Iraq's natural resources are used for the benefit of 
their owners, the Iraqi people.
    A fundamental advantage that Iraq has is its natural resources that 
are capable of providing a significant revenue stream to assist the 
Iraqi people in financing the reconstruction of their country. Once the 
situation stabilizes, Iraq should be able to restore revenues from oil 
sales.
    Prior to the liberation of Iraq, it is very difficult to estimate 
what the cost of reconstruction will be and how much the United States 
will be asked to contribute. Though the coalition military campaign is 
designed to minimize the impact on Iraqi civilians and the country's 
economic infrastructure, we cannot predict what Saddam Hussein will do 
to his own people or national resources. He has proven before that he 
has no regard for the welfare or wellbeing of the Iraqi people.
    The United States is committed to sharing costs with a broad 
coalition of partners and much work has been done to lay the 
foundations necessary to move quickly. The Department will quickly seek 
new Security Council Resolutions to encourage broad participation in 
the process of helping the liberated Iraqi people build a free and 
prosperous Iraq.
    We will continue to consult fully with the Congress as further 
information develops in the coming months.
                      millennium challenge account
    Question--More importantly, is it possible to spend more on aid or 
on programs like the Millennium Challenge Account in a fiscally 
responsible manner to prevent the types of problems in other regions of 
the world that we see in Iraq and North Korea today? Is it not cheaper 
to prevent war than to wage war?
    Answer--Economic assistance programs will always be an important 
part of our country's multifaceted defense strategy. Unfortunately, 
there are some situations, and I believe that Iraq and North Korea are 
examples, where problems cannot be solved through economic means, 
including assistance. Diplomacy is America's preferred means to ensure 
peace and advance our foreign policy objectives. However, even 
exhaustive diplomatic efforts cannot always resolve problems and we 
must resort to other means to defend ourselves and protect our 
interests. Our Armed Forces are an instrument of national power, but 
they must be the last resort when nations disagree.
    However, in many cases economic assistance has been a very 
effective tool, and we will continue to use it appropriately throughout 
the world.
    For example, the Freedom Support Act has been a significant factor 
in promoting stability in the Former Soviet Union. We expect to see 
similar success in the Near East as we implement the Middle East 
partnership initiative. We have requested $145 million for the 
Partnership Initiative in fiscal year 2004. This money will be used to 
help develop democracies and pluralism, promote educational reform 
opportunity, and encourage economic reform and liberalization. While we 
cannot realistically expect this initiative to prevent every problem in 
the region, we do expect it to be a significant force for peace and 
stability in the Middle East.
                             future threats
    Question--What is the potential Iraq of tomorrow, and what are we 
doing today to address that potential problem?
    Answer--The President has said, ``The gravest danger to freedom 
lies at the crossroads of radicalism and technology'' (West Point, June 
1, 2001). The states that are most likely to threaten us in the future 
are the rogue states described in the President's National Security 
Strategy. He identified these as states that brutalize their own 
people, disregard international law, threaten their neighbors, violate 
treaties, are determined to acquire weapons of mass destruction, 
sponsor terrorism, and reject basic human values and reject the values 
which form the foundation for this Nation. Confronting the threat of 
rogue states is a top priority for this administration. Each situation 
is unique, and we must work carefully to find the course of action in 
each instance that will promote peace and stability and prevent these 
states from threatening our security.
    In addition, there is an increasing threat from terrorist groups 
that operate independently of any state. We are working hard on the 
diplomatic, intelligence, law enforcement, economic and military fronts 
to deter, disrupt and defeat these terrorist groups. For example, the 
U.N. 1267 Sanctions Committee has now included over 325 names on its 
list of individuals and entities whose assets U.N. member states are 
obligated to freeze because of links to al Qaida and the Taliban. We 
and our allies have frozen their assets and we continue to work 
together to halt their operations. This is one of the many ways in 
which the international community, led by the United States, has acted 
to stop terrorists and those who support them.

Questions for the Record Offered by Hon. Rosa DeLauro, a Representative 
               in Congress From the State of Connecticut

              united states' relationship with its allies
    Question--We are currently facing a serious rift with our 
transatlantic alliance that may or may not be reparable. In view of 
this, and perhaps prematurely assuming that nations such as France, 
Germany, and Russia do not join the fight against Saddam Hussein, how 
do you think the apparent schism with our allies will impact our 
efforts in the aftermath of the war in Iraq?
    Answer--While we are seriously concerned by differences between the 
United States and some European countries on the best way to achieve 
our agreed goal of Iraqi disarmament, it is important to point out that 
a much greater number of European countries support the U.S. position 
than oppose it. In addition, there are many areas in which the U.S.-
European relationship is as strong as ever. These areas include the 
campaign against global terrorism, promotion of free trade and market 
economies, and support for democracy and human rights. Our economic 
relationship with Europe amounts to about $2 trillion in trade and 
investment. We work closely with our European friends and allies, 
including France, Germany, and Russia, on efforts to promote regional 
stability in the Balkans, the Caucasus, Afghanistan, and the Middle 
East through the quartet.
    The disagreement over Iraq is serious, but we have had 
disagreements with our European friends before, and we have 
consistently overcome these hurdles and moved on to continued 
cooperation.
    As far as a potential conflict with Iraq is concerned, beyond the 
very significant British contribution, a number of countries across 
Europe and Eurasia have pledged forces and specialized units to the 
coalition. We are talking privately with many European governments 
about possible coalition action. In a number of cases, acting on a 
bilateral basis, we requested and obtained base access and overflight 
and transit clearances. In fact, the French Foreign Ministry said that 
they would consider assistance in the event of an Iraqi chemical or 
biological attack. We also will look to our allies and friends in 
Europe for post-conflict support, including humanitarian assistance, 
and reconstruction. As in Afghanistan, we expect that the post-conflict 
phase in Iraq will be a cooperative effort. Fourteen members of NATO 
have deployed forces in support of Operation Enduring Freedom in 
Afghanistan, and we have worked particularly closely with the member 
states of the European Union. We are exploring with our allies the 
possibility of a greater role for NATO in the International Security 
Assistance Force (ISAF).
    In Iraq, we plan to work in close partnership with international 
institutions, including the United Nations, as well as our Allies, 
partners, and bilateral donors. If conflict occurs, we plan to seek the 
adoption of new United Nations Security Council resolutions that would 
affirm Iraq's territorial integrity, ensure rapid delivery of 
humanitarian relief, and endorse an appropriate post-conflict 
administration for Iraq. We are also proposing that the Secretary 
General be given authority, on an interim basis, to ensure that the 
humanitarian needs of the Iraqi people continue to be met through the 
Oil for Food Program.
                                  iraq
    Question--Who is going to be there to help us shoulder the costs of 
rebuilding Iraq? Further, how will the corrosion of our relations with 
nations that have been our partners for the past 50 years, affect our 
global war on terrorism and future foreign policy decisions connected 
to our national security? What are the estimates of the cost of 
rebuilding Iraq, particularly if the United States has no support from 
the allies.
    Answer--The United States is committed to assist the Iraqi people 
in the reconstruction and development of their nation once Saddam 
Hussein is no longer in power. Iraq's liberation would be the 
beginning, not the end of our commitment to its people. We will supply 
humanitarian relief, bring economic sanctions to a swift close, and 
work for the long-term recovery of Iraq's economy. The United States 
will ensure that Iraq's natural resources are used for the benefit of 
their owners, the Iraqi people.
    A fundamental advantage that Iraq has is its natural resources that 
are capable of providing a significant revenue stream to assist the 
Iraqi people in financing the reconstruction of their country. Once the 
situation stabilizes, Iraq should be able to restore revenues from oil 
sales.
    Prior to the liberation of Iraq, it is very difficult to estimate 
what the cost of reconstruction will be and how much the United States 
will be asked to contribute. Though the coalition military campaign is 
designed to minimize the impact on Iraqi civilians and the country's 
economic infrastructure, we cannot predict what Saddam Hussein will do 
to his own people or national resources. He has proven before that he 
has no regard for the welfare or wellbeing of the Iraqi people.
    The United States is committed to sharing costs with a broad 
coalition of partners and much work has been done to lay the 
foundations necessary to move quickly. The Department will quickly seek 
new Security Council resolutions to encourage broad participation in 
the process of helping the liberated Iraqi people build a free and 
prosperous Iraq.
    We will continue to consult fully with the Congress as further 
information develops in the coming months.
                              north korea
    Question--I am deeply concerned about the threat posed by North 
Korea, and I have trouble understanding how the administration is 
handling this crisis. If it is true, as CIA Director George Tenet said 
yesterday, that North Korea may have one or two nuclear weapons capable 
of reaching U.S. targets on the west coast, why are we dealing with 
this seemingly imminent threat with such tentative resolve? How do you 
justify our forceful case for war with Iraq, which most experts believe 
does not currently possess nuclear weapons, and our more passive 
approach and possible minimization of the threat that North Korea poses 
to our national security?
    Answer--North Korea and Iraq represent aspects of the extremely 
serious problem the President identified in last year's State of the 
Union Address: the proliferation of weapons of mass destruction and 
their delivery systems to states with a history of support for 
aggression and terrorism; there is however, no ``one-size-fits-all'' 
solution to the problem.
    We are not underestimating the danger inherent in a nuclear-armed 
North Korea. After discovering that North Korea was covertly pursuing 
nuclear arms through uranium enrichment technology, we faced the issue 
head on. We informed the North Koreans in October 2002 that we were 
aware of their secret program, and that it must be verifiably ended if 
North Korea wished to enjoy the benefits that accrue to responsible 
members of the international community. Instead, North Korea lifted the 
freeze on its nuclear facilities at Yongbon, which use reprocessing 
technology to produce plutonium for nuclear weapons.
    Given North Korea's violations of existing agreements against 
nuclear arms programs, a new approach is needed that deals with the 
nuclear question on the Korean Peninsula once and for all. The solution 
must come with a consensus of those most directly affected by this kind 
of North Korean activity, incluidng the South Koreans, the Japanese, 
the Chinese, and the Russians. For that reason, we are actively 
pursuing a multilateral diplomatic end to the North Korean nuclear 
program, one that is verifiable and irreversible.
    While Iraq has defied the international community for 12 years, we 
are only at the beginning of a diplomatic process to end North Korea's 
nuclear program since learning of its violation last year of existing 
agreements. We are giving diplomacy the opportunity to work, and have 
good reasons to believe that it will.
                                hiv/aids
    Question--I was very glad to hear the President's announcement of a 
new global AIDS Initiative. The United Nations Joint Program on HIV/
AIDS (UNAIDS) estimates that last year 2.4 million Africans died of 
AIDS-related illnesses, while 29.4 million continue to live with the 
disease. Heavily affected countries in sub-Saharan Africa are 
struggling to provide care and treatment for over a third of their 
populations. In the Caribbean, an estimated 440,000 people are infected 
with HIV/AIDS, a number that is continuing to climb. I have several 
questions regarding the President's announcement of this $15 billion 
``new'' initiative:
    <bullet>  How much of this is actually new money?
    <bullet>  How is this money going to be spent? I know the funding 
will come through the State Department, which will have a coordinator 
who will coordinate funding with other agencies. How much will go 
through other agencies and how much will go through State?
    <bullet>  I understand that in 2003 the United States is going to 
contribute about $250 million to the Global Fund. Will this be enough 
to meet the needs of the Global Fund? Didn't the Fund request $2.1 
billion from the United States?
    <bullet>  The President's proposal covers 12 countries in Africa 
and 2 in the Caribbean. Are you providing any funding for countries 
like China, Russia and India, which have burgeoning epidemics, so that 
we can take action before the problem explodes as it has in Africa?
    Answer--The President's Emergency Plan for AIDS Relief, announced 
by the President in his State of the Union Address, is a $15 billion, 
5-year plan to prevent 7 million new infections, treat 2 million HIV-
infected people with anti-retroviral medications, and care for 10 
million HIV-infected individuals and AIDS orphans. Of the $15 billion, 
$10 billion are new, additional resources.
    Regarding the role of the coordinator in disbursing funds, we 
envision that once funds are appropriated, the coordinator will be in a 
position to decide quickly how the resources will be allocated. The 
U.S. Agency for International Development (USAID) and the U.S. 
Department of Health and Human Services (HHS) will continue to play 
their key roles in helping confront this pandemic.
    The administration remains strongly committed to the Global Fund. 
The 5-year, $1-billion pledge that is part of the President's emergency 
plan is the most sustained to date and sends the strong message that 
our commitment to the Fund is not short-lived. The United States' 
contributions to the Fund thus far, even without the fiscal year 2003 
appropriation, represents roughly a third of all money the Fund has on 
hand. Pledges by the United States represent 50 percent of all 
commitments made to date. The United States is the only country to have 
made three pledges thus far and only two other countries (Germany and 
Ireland) have even made a second pledge. The United States has shown 
its commitment; it is now for others to follow suit, especially in 
Europe, and we are actively encouraging others to do so. The election 
of Health and Human Services Secretary Tommy Thompson as chair of the 
Fund's board is further proof that support for the Fund comes from the 
highest levels of the administration. The Fund has made no request to 
the United States to contribute $2.1 billion.
    The situation in Africa and the Caribbean is so severe that it 
qualifies as a crisis and requires special attention, which is the 
purpose of the Emergency Plan. The countries included in the plan 
represent 50 percent of the HIV/AIDS burden in the world.
    At the same time, Russia, China, and India are of concern and we 
will continue our normal bilateral efforts in those as well as in other 
countries. National leadership will be vital in ensuring that the 
problem does not explode; outside assistance does not work in the 
absence of leadership from within.

Question for the Record Offered by Hon. David Vitter, a Representative 
                in Congress From the State of Louisiana

                     u.n. conference on disarmament
    Question--Is there anything in the administration's budget request 
that addresses the need for real, fundamental reforms at the United 
Nations?
    Answer--The administration's budget request includes funds for 
payment of our assessed contributions to the U.N., some of which are 
channeled to the Office of Internal Oversight Services (OIOS), which 
conducts and supervises objective audits, inspections, and 
investigations of U.N. programs and operations. We consider the 
successful implementation of OIOS as the greatest single U.N. reform of 
the past decade, and continue to press for sufficient resources for it 
to accomplish its important work. OIOS's efforts have resulted in 
significant progress in creating a culture aimed at accountability, 
efficiency, and effectiveness--making the U.N. a much stronger 
organization. Implementation of OIOS's recommendations has saved the 
U.N. and member states millions of dollars.
    Although much has already been accomplished in reforming the U.N.; 
more needs to be done. With our encouragement, the Secretary General 
(SYG) has committed to implementing better evaluations of programs, 
which will require staff to be more accountable for their work (with an 
eye to shrinking or eliminating some programs that have outlived their 
usefulness, in order to fund more important programs); establishing a 
more efficient budget process; and instituting management improvements 
in several key departments/offices. We will continue to press the SYG 
to implement these and a number of reforms that he announced last fall 
including a major review of the Department of Public Information (which 
the State Department has long considered bloated and inefficient), as 
well as other efforts to improve the flow of information and save money 
(e.g., by consolidating some offices).
    We also plan to expand our efforts to place more Americans in the 
U.N. system, which we believe is not only a matter of our fair share 
relative to our financial contributions to the U.N., but something 
which will increase its efficacy.

Question for the Record Offered by Roger F. Wicker, a Representative in 
                 Congress From the State of Mississippi

                   the goals of the war on terrorism
    Question--The events of September 11 have committed our Nation to 
fighting an enemy unlike any we have ever faced. This loose network of 
radical Islamic terrorists does not restrict its recruitment to the 
slums of the Middle East; its presence is alive throughout Europe, 
Southeast Asia, and even here in the United States.
    What are our goals in this conflict and with no real lines of 
demarcation, when will we know if we have achieved those goals?
    Answer--The goals of the war on terrorism are first, defeat 
terrorist organizations; second, deny sponsorship, support, and 
sanctuary to terrorists; third, diminish the underlying conditions that 
terrorists seek to exploit; and fourth defend the United States, our 
citizens, and our interests from terrorist attacks. No hard and fast 
timeline can be placed on this campaign. As the President has said on 
numerous occasions, this will be a long struggle, requiring the United 
States and its partners to bring all the tools of government to bear 
consistently over time to be successful. We will not rest until all 
terrorist groups that threaten our way of life have been found, 
disrupted, and defeated.
                 the commitment on the war on terrorism
    Background--The tools for the war on terror will not be limited to 
military armaments. We will have to continue to make significant 
commitments in humanitarian aid and foreign assistance. This year the 
President's budget commits more than $25.6 billion or approximately .2 
percent of the gross domestic product to international affairs.
    Question--Does this amount show a sufficient commitment to 
achieving our objectives in the war on terrorism and if not what 
percentage will be necessary to achieve our desired goals?
    Answer--The President's budget request for fiscal year 2004 
reflects my Department's needs for the year. Fighting terrorism, 
however, is a fluid challenge. If other needs develop, the 
administration will work with Congress to ensure that the United States 
has the tools it needs to counter the threat of terrorism effectively.
                         nuclear proliferation
    Question--The instability of the world has increased the risk and, 
by that, the possible consequences of nuclear proliferation. Could you 
comment on our country's efforts to reduce the risk of nuclear 
proliferation and do you believe that we have made a sufficient 
commitment to reducing these threats?
    Answer--We are vigorously pursuing strong policies and programs to 
reduce the risks of nuclear proliferation. We want to reduce the 
availability of dangerous nuclear materials and know-how, as well as 
reduce the demand for them.
    On the supply side, we are focusing on the still sizable residual 
stocks of dangerous materials from the massive nuclear weapons 
establishment of the former Soviet Union. The Departments of Energy, 
Defense, and State have collaborated under the Cooperative Threat 
Reduction and other authorities, to lock down threats that arose from 
the former Soviet arsenal. This administration has accelerated funding 
for a number of projects, although there remains much more still to do, 
and we must continue boldly down this path. The United States is 
spending nearly $1 billion a year to improve security at Russian 
storage facilities, to consolidate stored fissile materials, to stop 
new production and to purchase or down-blend former nuclear weapons 
material to reduce supply. My State Department team provides the 
diplomatic lead for several threat reduction programs of the Defense 
and Energy Departments. Early this month, Energy Secretary Abraham 
signed the Plutonium Production Reactor Agreement, which will lead to 
permanent closure of Russia's three plutonium production facilities. 
Also, the State Department itself runs the International Science 
Centers in Russia and Ukraine, which employ former Soviet weapons 
scientists in peaceful, commercial projects--to reduce the temptation 
for those scientists to hire themselves out to proliferators.
    Beyond Russia and the other states of the former Soviet Union, we 
also run two important global programs. One is the Nonproliferation and 
Disarmament Fund (NDF), which tackles tough, urgent problems, such as 
the removal of highly enriched uranium from Vinca, in Serbia to safe 
storage in Russia. The NDF has also created a computer system, 
``Tracker,'' that already enables nine countries and 66 ministries to 
inventory and account for weapons-sensitive exports, and is expanding.
    Second, our Export Control and Related Border Security Assistance 
Program (EXBS) runs programs in 35 countries, aiming to help our 
partners control the flow of dangerous technologies and materials in 
the most dangerous parts of the world.
    Another important area is our partnership with the International 
Atomic Energy Agency (IAEA), whose safeguards program aims to ensure 
that civilian nuclear facilities remain exactly that--civilian--and to 
enable the IAEA to ferret out covert weapons efforts. We are prepared 
to back tough safeguards with increased funding.
    We are constantly working to make the international nuclear 
nonproliferation regimes more effective. We are aggressively engaged in 
multinational efforts to strengthen export control partnerships such as 
the Nuclear Suppliers Group and the Zangger Committee. But that is not 
enough. We also are pressing the importance of other governments 
protecting their security interests as well as ours by exercising 
greater scrutiny over their exports and to use their diplomacy more 
actively to dissuade proliferators. But we have other tools as well, 
when appropriate: interdiction, sanctions and positive measures, such 
as the commitment of G-8 leaders last summer to a new Global 
Partnership Against the Spread of Weapons and Materials of Mass 
Destruction. Under the Global Partnership, the leaders pledged to raise 
$20 billion over the years for cooperation on nonproliferation, 
disarmament, nuclear safety, and counterterrorism projects, initially 
focused on Russia. We are working to encourage full implementation of 
that initiative.
    On the demand side, the bedrock of countering the nuclear threat 
remains adherence to the Nuclear Nonproliferation Treaty (NPT). The 
news has been grim from South Asia, Iran, Iraq, and North Korea, but 
most of the 188 nations inside the NPT (India and Pakistan are not 
signatories) have made irrevocable decisions to forgo the nuclear 
option. Several states have actually turned back from nuclear weapons 
programs, others have abandoned weapons inherited at the fall of the 
Soviet Union. We will stick, firmly, by the treaty, and the IAEA 
safeguards programs necessary to give confidence to it. Meanwhile, we 
are pursuing vigorous diplomacy to unite the international community to 
turn back the nuclear weapons ambitions of Iran and North Korea, even 
as we carefully monitor their actions.
    India and Pakistan are two very different countries with which we 
are pursuing boldly different relationships. Ongoing tensions between 
them make especially important their controls on sensitive 
technologies, and we are also mindful that nuclear weapons could be 
used, either intentionally or accidentally, in a crisis. We discuss 
these issues regularly with both governments, weighing our mutual 
interest in cooperation against our obligations under the NPT, U.S. law 
and our commitments to international regimes.

    Chairman Nussle. Mr. Secretary, welcome back to the Budget 
Committee. We sincerely do appreciate the time you are spending 
with us today, and you are welcome to proceed with your 
testimony.

        STATEMENT OF SECRETARY OF STATE COLIN L. POWELL

    Secretary Powell. Thank you very much, Mr. Chairman. I 
thank you for your opening remarks and you, too, Mr. Moran.
    Let me begin by telling you what a pleasure it is for me to 
be back. I am not kidding. I am glad to be here; you are the 
IG. It is my responsibility to appear before the Congress to 
tell you why we need the funds that you are going to provide to 
us and how we are going to use them, how we are going to be 
good stewards of the people's treasury, make sure we apply it 
in the right way, and that we are good managers of the funds 
that you provide us.
    Let me also express my sincere thanks for the support that 
this committee and, frankly, all Members of Congress have 
provided to the State Department over the last couple of years. 
We have seen some real improvements in the management of our 
people, in the way we are running our overseas building 
operations, what we are doing with information technology--I 
will talk about all of that in a moment--but we could not do 
any of this if we did not have the support of Congress.
    As was mentioned by Mr. Moran a minute ago, it is not 
always politically attractive to support our efforts. I am 
going to help you make it politically attractive. This function 
really does support the American people and their dreams and 
aspirations for a better, more peaceful world.
    Some of the issues that the chairman talked about with 
respect to HIV/AIDS and poverty and famine, all of which are 
interlinked, which I will get into, ultimately affect the 
American people. A stable world of people committed to 
democracy and economic freedom and our supporting those efforts 
through such programs as the Millennium Challenge Account, 
which I will also talk about, ultimately, this benefits the 
American people. We are no longer isolated.
    If I could figure out a way to get rid of the term 
``foreign aid,'' I would do it. It is probably too embedded in 
literature and history, but it isn't an accurate reflection of 
what these funds are really used for.
    What I would like to do, Mr. Chairman, is talk to the 
specific issues you mentioned in a moment. But I would like to 
offer my prepared testimony for the record and then do a 
summary of that testimony. Then we can get right into your 
questions and answers.
    Mr. Chairman and members of the committee, I am pleased to 
appear before you to testify in support of the President's 
international affairs budget for fiscal year 2004. Funding 
requested for 2004 for the Department of State, USAID, and 
other foreign affairs agencies is $28.5 billion.
    The President's budget will allow the United States to 
target security and economic assistance to sustain key 
countries supporting us in the war on terrorism and helping us 
to stem the proliferation of weapons of mass destruction.
    Funds will also allow us to launch the Millennium Challenge 
Account, a new partnership generating support to countries that 
rule justly, that invest in their people and encourage economic 
freedom.
    It will also allow us to strengthen the United States and 
our global commitment to fighting HIV/AIDS and alleviating 
humanitarian hardships.
    It will also allow us to combat illegal drugs in the Andean 
region of South America, as well as bolster democracy in one of 
that region's most important countries, Colombia. It will 
reinforce America's world-class diplomatic force, focusing on 
the people, places and tools needed to promote our foreign 
policies around the world.
    I am particularly proud of that last goal, and I am 
particularly committed to that last goal. Mr. Chairman, for the 
past 2 years I have concentrated on each of my jobs: primary 
foreign policy advisor, and chief executive officer--the boss--
the leader of the State Department. And that last goal connects 
to my leadership responsibilities to make sure that we have a 
world-class diplomatic force.
    We are asking for $8.5 billion of the $28.5 billion overall 
request to run the Department of State. Let me give you some 
highlights of that and begin with our diplomatic readiness 
initiative, an initiative to bring more people into the 
Department. With your assistance, we will hire another 399 
professionals this year, the same number as last year; and over 
a 3-year period it will result in the addition of 1,100 
professionals, Foreign Service Officers, civil servants and 
others, to support the Department's efforts around the world.
    I cannot tell you how important this single initiative is 
to the morale of the Department, but beyond the morale of the 
Department, the esprit de corps of the Department, it allows us 
get our job done. During the 1990s, there were years when no 
one was hired into the Foreign Service. This was a disaster. 
You can't have a professional service that doesn't have blood, 
fresh blood, fresh life, coming into it.
    Even when I was chairman of the Joint Chiefs of Staff and I 
was cutting 500,000 troops out of the force structure at the 
end of the cold war, we still were bringing in second 
lieutenants and privates. Why? Because if you want a battalion 
commander in 15 years, you have to bring in a second lieutenant 
today. If you want a squad leader in 9 years, you have to hire 
a private today. Yet in the State Department, even though we 
know we are going to need ambassadors in the future, we are 
going to need political counselors in the future, we are going 
to need all of those professionals in the future, we stopped 
hiring for years.
    We turned that around. Over the last 2 years we have given 
the Foreign Service written exam to 80,000 young Americans; 
80,000 young Americans have stood up and said, I want to be a 
part of this outfit. I want to be a part of America's 
diplomatic force. I want to be part of our diplomatic offensive 
troops, out there taking our case to the world; 80,000 
youngsters have signed up to take this test. Some of them are 
not such youngsters. Some of them are kind of old geezers like 
me, but they all wanted to serve the country.
    The last time we gave the test, 38 percent who passed were 
minorities. We are drawing from all parts of America's great 
diversity so that the State Department, USAID increasingly and 
all of our other agencies increasingly look like America and, 
look like the rest of the world as well.
    Nothing would be more disastrous to my efforts than to have 
somebody say, sorry, we are going to line that item out. You 
can't hire anybody.
    Don't do that. I know you won't. This committee wouldn't 
ever think of doing such a thing, but it has been done in the 
past. Please support my Diplomatic Readiness Initiative with 
all the energy you can muster.
    It also gives me flexibility to deal with surges, problems 
that come along, and not constantly stealing from one office or 
embassy to take care of a new problem that just emerged in 
another office or embassy. It gives me some flexibility to 
train people so that I can take them out of their assignments, 
send them to school, get the qualifications they need, in an 
increasingly complex world, to get econ officers trained and 
information specialists trained and get language training. I 
need some flexibility in the force, and the Diplomatic 
Readiness Initiative does that for us.
    Second, I promised to you a couple years ago that I was 
going to make information technology available to every single 
member of the State Department. Everybody in the Department at 
every embassy, every mission, I don't care where they are, they 
are going to have an Internet-capable computer, classified/
unclassified, on their desk, so that they can be in this fast-
moving world that we live in.
    It was illustrated to me again last week when I spoke at 
the U.N. within minutes after my speech, Ambassador Boucher, my 
press spokesman, and the whole international information 
program part of the Department of State, was translating it--
immediately uploading it, downloading it, backloading it, 
sending it to every embassy in the world, and in every language 
we could think of. We had brochures coming out to get the 
message out and every ambassador being instructed to go talk to 
your counterparts about what the Secretary said. It is 
instantaneously done now, and that is the way the world is.
    Looking at the papers the day after my presentation, the 
picture of me holding a little vial, for example, but the 
picture that touched me the most was the picture that was 
either in the Post or Times. It was a picture of an aircraft 
carrier ready room. One of those ready rooms from the old war 
movies. All those pilots sitting there, getting their 
instructions on their little clipboards to go out and fly their 
mission. But in this instance, in this pilot ready room--they 
looked like F-18 pilots--and they were sitting there all 
looking at a screen in front of them that was of me the day 
before making my presentation at the U.N.
    A lot of people watched this presentation with interest. 
These guys had more than a passing interest because I was 
talking about their lives, and what they might be doing in the 
near future. They were not waiting to read it in tomorrow's 
newspaper, or waiting for some brilliant talking head to tell 
them what they saw. They were watching it in real time, 
instantaneously in the Persian Gulf, aboard an aircraft carrier 
while I was saying those words. That is the nature of modern 
information technology and modern communications, and I have to 
make sure that every service person in the State Department has 
access to that kind of information technology so that they can 
do their job. It is for that reason we are making such an 
investment in modern information technology throughout the 
Department of State.
    Finally, with respect to my CEO role, I would touch on one 
other area. There are lots of things I could talk about and 
will in response to your questions, but I want to talk about 
something that the chairman talked about, and that was our 
overseas building operations. How we build our embassies and 
how we take care of our people, how we secure our facilities 
and thereby secure our people.
    Our people live and work in danger. I lost three members of 
my State Department family to terrorism last year. I have got 
to take care of our troops just like the military takes care of 
its troops with force protection. We spend $1.5 billion a year 
on our embassy programs. They are now under the control of Gen. 
Chuck Williams, an old friend of mine of many years' duration, 
who is a Corps of Engineers officer in the Army and is a master 
of modern construction techniques and knows everything that is 
going on in the civilian side of construction. We are bringing 
the best practices from the civilian world into our overseas 
building operation.
    Our new embassies are now being completed on time, and 
significantly under cost. A program that I think was in some 
disarray--and members of this committee pointed thats out to me 
when I took over--I think is now being run in a very efficient 
way, and we are looking for even better ways to make sure that 
we are spending that money properly.
    Mr. Chairman, as the principal foreign policy advisor to 
President Bush, I have budget priorities that are a little bit 
different, of course, than my CEO priorities. These have to do 
with our foreign policy issues. The 2004 budget proposes 
several initiatives in this regard that will serve to advance 
U.S. national security interests and preserve American 
leadership. The 2004 foreign ops budget that funds programs for 
State, USAID and other foreign affairs agencies is $18.8 
billion. Today, our number one priority is to fight and win the 
global war on terrorism. This budget request furthers this goal 
by providing economic, military and democracy assistance to key 
foreign partners and allies, including $4.7 billion to 
countries that have joined us in the war on terrorism.
    Of this amount, the President's budget provides $657 
million for Afghanistan, $460 million for Jordan, $395 million 
for Pakistan, $255 million for Turkey, $136 million for 
Indonesia, and $87 million for the Philippines.
    As was noted by Mr. Moran, of course there are other 
programs being looked at. There are other needs we will have 
that are not in the President's budget at the moment and will 
have to be dealt with by supplemental funding at some point in 
the future.
    In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network. In addition, 
it will establish security through a national military and 
national police force, establish broad-based and accountable 
governance throughout democratic institutions and throughout an 
active civil society in Afghanistan, ensure a peace dividend 
for the Afghan people through economic reconstruction; and we 
will work closely in all these efforts with the United Nations 
and other international donors.
    That is kind of a bureaucratic statement, but the reality 
is we should be very proud of what we have done in Afghanistan 
over the past year and a half. The glass may be half full or 
half empty, depending on your point of view, and it is still a 
fragile situation. Al Qaeda and Taliban elements are still on 
the loose, and we are chasing them down. General Franks and his 
troops are still working that problem.
    But when you look at what we have accomplished, we have put 
in place a new government, responsive to the people. A Loya 
Jirga has been held. They are getting ready for full elections 
in the not-too-distant future. We are constructing roads that 
connect this country together once again, economically and 
politically. We are training a national army that is now 
starting to send battalions out to other parts of the country 
to provide stability. A million people have returned to 
Afghanistan, who were refugees in camps in Pakistan and 
elsewhere. We have allowed women to participate in the life of 
Afghanistan. It is incredible. Schools are going up. Hospitals 
are going up. The international community is unified behind 
this effort.
    Even though there are still very difficult days ahead for 
Afghanistan, we should be proud about what we have done since 
we took out the Taliban and put al Qaeda on the run.
    Mr. Chairman, I also want to emphasize our efforts to 
decrease the threats posed by terrorist groups, rogue states 
and other nonstate actors, with regard to weapons of mass 
destruction and related technology. To achieve this goal we 
have to strengthen our partnerships with countries that share 
our views in dealing with the threat of terrorism and in 
resolving regional conflicts.
    The 2004 budget requests $35 million for the 
Nonproliferation and Disarmament Fund, more than double the 
2003 request, increases funding for overseas export controls 
and border security to $40 million, and supports additional 
funding for science centers and bio-chem redirection programs.
    Funding increases requested for these programs will help us 
prevent weapons of mass destruction from falling into the hands 
of terrorist groups or states. It will do so by preventing the 
movement of these kinds of technologies across borders and by 
destroying or safeguarding known quantities of such weapons or 
source material in various states such as some of the former 
states of the former Soviet Union.
    The science centers and bio-chem redirection programs 
support the same goals by engaging former Soviet weapon 
scientists and engineers in peaceful scientific activities. To 
not allow the knowledge they have in their head to be used for 
the wrong purposes but to give them an opportunity to use that 
knowledge for good and to help their own society sbenefit from 
such knowledge and not use it for weaponry.
    The budget also promotes international peace and prosperity 
by launching the Millennium Challenge Account, funded at $1.3 
billion. Frankly, this will be a brand-new kind of development 
aid; assistance to nations in need. It will go to developing 
nations, but the difference between it and previous foreign 
assistance, is that this will go to those nations that have 
made a commitment to democracy, that believe in the rule of law 
and are demonstrating that belief, that are rooting out 
corruption, that are committed to economic market activity and 
that will build the infrastructure of their society to teach 
children the skills they need for a 21st century economy. In 
other words, those countries that have said, we are now going 
to move down the right path. We need to help.
    The Millennium Challenge Account help will go to those 
countries greatest in need but also who have made this 
commitment to the right kind of governance and to the values 
that I have just described; and it will go to helping them 
build their infrastructure, education, clean water, health care 
systems, those things needed to improve the ability of their 
people to join in the 21st century world.
    This budget also offers hope and a helping hand to 
countries facing health catastrophes, poverty, despair and 
humanitarian disasters. The budget includes more than $1 
billion to meet the needs of refugees and internally displaced 
peoples.
    The budget also provides more than $1.3 billion to combat 
the global HIV/AIDS epidemic. The President's total budget for 
HIV/AIDS is $2 billion, which includes the first year's funding 
for the new emergency plan for HIV/AIDS relief that he 
announced in his State of the Union Address. Those funds will 
target 14 of the hardest hit countries in Africa and the 
Caribbean.
    We should be very proud about what we have been doing as a 
nation over the last 2 years. Participating with the global 
health fund, working with the Secretary General, Kofi Annan, 
the President's program with respect to helping mothers with 
the antiviral drugs, mother-to-child transmission, and now with 
the President's new global initiative directed at these 14 
specific nations.
    The chairman talked about this in his opening remarks, and 
I couldn't agree with him more that HIV/AIDS in sub-Saharan 
Africa, the Caribbean, and other parts of the world will become 
a serious problem, including India, China. That is the major 
challenge before the world today. Notwithstanding all of the 
other crises we are facing, nothing rises to the challenge that 
we are presented through this horrible disease and the related 
diseases that come along with it.
    When people start to be weakened by this virus and when 
they are also weakened by poverty, when they are weakened 
because they can't grow food because there is drought or 
because there are bad political policies or stupid policies 
having to do with denying biotechnology to enhance food 
production, it all links together. Poverty, famine, HIV/AIDS 
and other infectious diseases, these all come together to 
create a catastrophe that is facing the world. Its something 
that the United States recognizes, and we are doing a lot 
about, but it is something the whole world needs to recognize 
and do something about.
    I am pleased, Mr. Chairman, that you and members of this 
committee are committed to helping us do something about it. It 
is a challenge for the American people, a challenge we must not 
step aside from.
    Anybody who has traveled in sub-Saharan Africa knows 
exactly what you were talking about earlier, Mr. Chairman. 
Orphans--orphans who are sitting there without care providers, 
without education. Their teachers are dying at a faster rate 
than the parents are. A whole level of society being removed at 
the sexually active level, who are also those individuals at 
the peak of their capacity to contribute to society, 20 through 
40. They are supposed to be getting skills, they are supposed 
to be working, they are supposed to be providing the economic 
activity within that society. They are being taken out, and you 
are left with orphans and grandparents.
    This is not only a health problem. It is societal problem, 
a political problem, a destabilizing problem. It leads to 
terrorism, as you noted, Mr. Chairman, and it leads to all 
other sorts of social pathologies that, if we don't do 
something about, we are going to pay the consequences of at 
some point in the future. I certainly applaud your commitment 
and the commitment of all the members of this committee to help 
us attack this multifaceted problem in every way that we can.
    Mr. Chairman and colleagues, the budget also includes half 
a billion dollars for Colombia. This funding will support 
Colombian President Uribe's unified campaign against terrorists 
and the drug trade. To accomplish his goals and to help him 
requires more than simply funding Colombia itself. We need to 
help him with the surrounding countries, and that is why our 
total Andean Counterdrug Initiative, to help Colombia and the 
other nations in the region, is $731 million. This will also 
include resumption of the air bridge denial program, to stop 
internal and cross-border aerial trafficking.
    Mr. Chairman, members of the committee, to advance 
America's interest around the world, we need the dollars in the 
President's budget for fiscal year 2004.
    To Mr. Moran's point, we need the omnibus bill badly, 
quickly, soon for 2003; and we hope that action will take place 
in the next day or two so that we can get on with our efforts 
and on with our programs.
    We have no specific additional needs that we would like to 
identify for you at this moment, Mr. Moran, but I will go back, 
check and see if there is any gap or any problem that we have 
that we should bring to your attention.
    Mr. Chairman, I think I will stop at this point. We all 
know that we are living in difficult times, but we are also 
living in times of enormous opportunity. While we worry about 
Iraq, the Middle East, North Korea, and the other issues that I 
am sure we will be discussing here today, I also lean back late 
at night and think about the opportunities presented by the end 
of the cold war and the defeat of communism, the defeat of 
fascism, and the fact that it is democracy and free economic 
market programs and philosophies that are moving countries in 
the right direction. We have got to be there to help them. We 
help them by providing a security shield with our wonderful 
military forces around the world, but we also help them by what 
your State Department and all of its related agencies do every 
single day.
    We also help them when Members of our Congress travel and 
learn about what is going on in these sometimes seeming faraway 
places. This Secretary of State will never criticize any Member 
of Congress for traveling and taking your staff with you and 
taking other Members of Congress with you. In my judgment, they 
are not junkets. They are an essential part of our foreign 
policy operation around the world. And anybody that doesn't 
have a passport, I have passport applications with me and I am 
more than happy to provide them.
    Thank you, Mr. Chairman.
    Chairman Nussle. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Powell follows:]

Prepared Statement of Hon. Colin L. Powell, Secretary, U.S. Department 
                                of State

    Mr. Chairman, members of the committee, I am pleased to appear 
before you to testify in support of the President's International 
Affairs budget for fiscal year 2004. Funding requested for fiscal year 
2004 for the Department of State, USAID, and other foreign affairs 
agencies is $28.5 billion.
    The President's budget will allow the United States to:
    <bullet>  Target security and economic assistance to sustain key 
countries supporting us in the war on terrorism and helping us to stem 
the proliferation of weapons of mass destruction;
    <bullet>  Launch the Millennium Challenge Account--a new 
partnership generating support to countries that rule justly, invest in 
their people, and encourage economic freedom;
    <bullet>  Strengthen the U.S. and global commitment to fighting 
HIV/AIDS and alleviating humanitarian hardships;
    <bullet>  Combat illegal drugs in the Andean Region of South 
America, as well as bolster democracy in one of that region's most 
important countries, Colombia; and
    <bullet>  Reinforce America's world-class diplomatic force, 
focusing on the people, places, and tools needed to promote our foreign 
policies around the world.
    I am particularly proud of the last bullet, Mr. Chairman, because 
for the past 2 years I have concentrated on each of my jobs--primary 
foreign policy advisor to the President and Chief Executive Officer of 
the State Department.
    Under my CEO hat, we have been reinforcing our diplomatic force for 
2 years and we will continue in fiscal year 2004. We will hire 399 more 
professionals to help the President carry out the Nation's foreign 
policy. This hiring will bring us to the 1,100-plus new foreign and 
civil service officers we set out to hire over the first 3 years to 
bring the Department's personnel back in line with its diplomatic 
workload. Moreover, completion of these hires will allow us the 
flexibility to train and educate all of our officers as they should be 
trained and educated. So I am proud of that accomplishment and want to 
thank you for helping me bring it about.
    In addition, I promised to bring state-of-the-art communications 
capability to the Department--because people who can't communicate 
rapidly and effectively in today's globalizing world can't carry out 
our foreign policy. We are approaching our goal in that regard as well.
    In both unclassified and classified communications capability, 
including desktop access to the Internet for every man and woman at 
State, we are there by the end of 2003. The budget before you will 
sustain these gains and continue our information technology 
modernization effort.
    Finally, with respect to my CEO role, I wanted to sweep the slate 
clean and completely revamp the way we construct our embassies and 
other overseas buildings, as well as improve the way we secure our men 
and women who occupy them. As you well know, that last task is a long-
term, almost never-ending one, particularly in this time of heightened 
terrorist activities. But we are well on the way to implementing both 
the construction and the security tasks in a better way, in a less 
expensive way, and in a way that subsequent CEOs can continue and 
improve on.
    Mr. Chairman, let me give you key details with respect to these 
three main CEO priorities, as well as tell you about other initiatives 
under my CEO hat:
    the ceo responsibilities: state department and related agencies
    The President's fiscal year 2004 discretionary request for the 
Department of State and Related Agencies is $8.497 billion. The 
requested funding will allow us to:
    <bullet>  Continue initiatives to recruit, hire, train, and deploy 
the right work force. The budget request includes $97 million to 
complete the Diplomatic Readiness Initiative by hiring 399 additional 
foreign affairs professionals. Foreign policy is carried out through 
our people, and rebuilding America's diplomatic readiness in staffing 
wisll ensure that the Department can respond to crises and emerging 
foreign policy priorities. This is the third year of funding for this 
initiative, which will provide a total of 1,158 new staff for the 
Department of State.
    <bullet>  Continue to put information technology in the service of 
diplomacy. The budget request includes $157 million to sustain the 
investments made over the last 2 years to provide classified 
connectivity to every post that requires it and to expand desktop 
access to the Internet for State Department employees. Combined with 
$114 million in estimated expedited passport fees, a total of $271 
million will be available for information technology investments, 
including beginning a major initiative--SMART--that will overhaul the 
outdated systems for cables, messaging, information sharing, and 
document archiving.
    <bullet>  Continue to upgrade and enhance our security worldwide. 
The budget request includes $646.7 million for programs to enhance the 
security of our diplomatic facilities and personnel serving abroad and 
for hiring 85 additional security and support professionals to sustain 
the Department's Worldwide Security Upgrades program.
    <bullet>  Continue to upgrade the security of our overseas 
facilities. The budget request includes $1.514 billion to fund major 
security-related construction projects and address the major physical 
security and rehabilitation needs of embassies and consulates around 
the world. The request includes $761.4 million for construction of 
secure embassy compounds in seven countries and $128.3 million for 
construction of a new embassy building in Germany.
    <bullet>  The budget also supports management improvements to the 
overseas buildings program and the Overseas Building Operations (OBO) 
long-range plan. The budget proposes a Capital Security Cost Sharing 
Program that allocates the capital costs of new overseas facilities to 
all U.S. Government agencies on the basis of the number of their 
authorized overseas positions. This program will serve two vital 
purposes: first, to accelerate construction of new embassy compounds 
and second, to encourage Federal agencies to evaluate their overseas 
positions more carefully. In doing so, it will further the President's 
Management Agenda initiative to rightsize the official American 
presence abroad. The modest surcharge to the cost of stationing an 
American employee overseas will not undermine vital overseas work, but 
it will encourage more efficient management of personnel and taxpayer 
funds.
    <bullet>  Continue to enhance the Border Security Program. The 
budget request includes $736 million in Machine Readable Visa (MRV) fee 
revenues for continuous improvements in consular systems, processes, 
and programs in order to protect U.S. borders against the illegal entry 
of individuals who would do us harm.
    <bullet>  Meet our obligations to international organizations. 
Fulfilling U.S. commitments is vital to building coalitions and gaining 
support for U.S. interests and policies in the war against terrorism 
and the spread of weapons of mass destruction. The budget request 
includes $1 billion to fund U.S. assessments to 44 international 
organizations, including $71.4 million to support renewed U.S. 
membership in the United Nations Educational, Scientific, and Cultural 
Organization (UNESCO).
    <bullet>  Support obligations to international peacekeeping 
activities. The budget request includes $550.2 million to pay projected 
U.N. peacekeeping assessments. These peacekeeping activities ensure 
continued American leadership in shaping the international community's 
response to developments that threaten international peace and 
stability.
    <bullet>  Continue to eliminate support for terrorists and thus 
deny them safe haven through our ongoing public diplomacy activities, 
our educational and cultural exchange programs, and international 
broadcasting. The budget request includes $296.9 million for public 
diplomacy, including information and cultural programs carried out by 
overseas missions and supported by public diplomacy personnel in our 
regional and functional bureaus. These resources are used to engage, 
inform, and influence foreign publics and broaden dialogue between 
American citizens and institutions and their counterparts abroad.
    The budget request also includes $345.3 million for educational and 
cultural exchange programs that build mutual understanding and develop 
friendly relations between America and the peoples of the world. These 
activities establish the trust, confidence, and international 
cooperation with other countries that sustain and advance the full 
range of American national interests.
    The budget request includes $100 million for education and cultural 
exchanges for states of the former Soviet Union and Central and Eastern 
Europe, which were previously funded under the FREEDOM Support Act and 
Support for East European Democracy (SEED) accounts.
    As a member of the Broadcasting Board of Governors, I want to take 
this opportunity to highlight to you the BBG's pending budget request 
for $563.5 million. Funding will advance international broadcasting 
efforts to support the war on terrorism, including initiation of the 
Middle East Television Network.
    Mr. Chairman, I know that your committee staff will go over this 
statement with a fine-tooth comb and I know too that they prefer an 
account-by-account laydown. So here it is:
                diplomatic and consular programs (d&cp)
    <bullet>  The fiscal year 2004 request for D&CP, the State 
Department's chief operating account, totals $4.164 billion.
    <bullet>  D&CP supports the diplomatic activities and programs that 
constitute the first line of offense against threats to the security 
and prosperity of the American people. Together with Machine Readable 
Visa and other fees, the account funds the operating expenses and 
infrastructure necessary for carrying out U.S. foreign policy in more 
than 260 locations around the world.
    <bullet>  The fiscal year 2004 D&CP request provides $3.517 billion 
for ongoing operations--a net increase of $132.7 million over the 
fiscal year 2003 level. Increased funding will enable the State 
Department to advance national interests effectively through improved 
diplomatic readiness, particularly in human resources.
    <bullet>  The request completes the Secretary's 3-year Diplomatic 
Readiness Initiative to put the right people with the right skills in 
the right place at the right time. New D&CP funding in fiscal year 2004 
of $97 million will allow the addition of 399 professionals, providing 
a total of 1,158 new staff from fiscal year 2002 through fiscal year 
2004.
    <bullet>  The fiscal year 2004 D&CP request also provides $646.7 
million for Worldwide Security Upgrades--an increase of $93.7 million 
over last year. This total includes $504.6 million to continue 
worldwide security programs for guard protection, physical security 
equipment and technical support, information and system security, and 
security personnel and training. It also includes $43.4 million to 
expand the perimeter security enhancement program for 232 posts and 
$98.7 million for improvements in domestic and overseas protection 
programs, including 85 additional agents and other security 
professionals.
                     capital investment fund (cif)
    <bullet>  The fiscal year 2004 request provides $157 million for 
the CIF to assure that the investments made in fiscal year 2002 and 
fiscal year 2003 keep pace with increased demand from users for 
functionality and speed.
    <bullet>  Requested funding includes $15 million for the State 
Messaging and Archive Retrieval Toolset (SMART). The SMART initiative 
will replace outdated systems for cables and messages with a unified 
system that adds information sharing and document archiving.
         embassy security, construction, and maintenance (escm)
    <bullet>  The fiscal year 2004 request for ESCM is $1.514 billion. 
This total--an increase of $209.4 million over the fiscal year 2003 
level--reflects the administration's continuing commitment to protect 
U.S. Government personnel serving abroad, improve the security posture 
of facilities overseas, and address serious deficiencies in the State 
Department's overseas infrastructure.
    <bullet>  For the ongoing ESCM budget, the administration is 
requesting $524.7 million. This budget includes maintenance and repairs 
at overseas posts, facility rehabilitation projects, construction 
security, renovation of the Harry S. Truman Building, all activities 
associated with leasing overseas properties, and management of the 
overseas buildings program.
    <bullet>  For Worldwide Security Construction, the administration 
is requesting $761.4 million for the next tranche of security-driven 
construction projects to replace high-risk facilities. Funding will 
support the construction of secure embassies in seven countries--
Algeria, Burma, Ghana, Indonesia, Panama, Serbia, and Togo. In 
addition, the requested funding will provide new on-compound buildings 
for USAID in Ghana, Jamaica, and Nigeria.
    <bullet>  The ESCM request includes $100 million to strengthen 
compound security at vulnerable posts.
    <bullet>  The request also includes $128.3 million to construct the 
new U.S. embassy building in Berlin.
            educational and cultural exchange programs (ece)
    <bullet>  The fiscal year 2004 request of $345.3 million for ECE 
maintains funding for exchanges at the fiscal year 2003 request level 
of $245 million and adds $100 million for projects for Eastern Europe 
and the States of the Former Soviet Union previously funded from 
Foreign Operations appropriations.
    <bullet>  Authorized by the Mutual Educational and Cultural 
Exchange Act of 1961 (Fulbright-Hays Act), as amended, exchanges are 
strategic activities that build mutual understanding and develop 
friendly relations between the United States and other countries. They 
establish the trust, confidence, and international cooperation 
necessary to sustain and advance the full range of U.S. national 
interests.
    <bullet>  The request provides $141 million for academic programs. 
These include the J. William Fulbright Educational Exchange Program for 
exchange of students, scholars, and teachers and the Hubert H. Humphrey 
Fellowship Program for academic study and internships in the United 
States for mid-career professionals from developing countries.
    <bullet>  The request also provides $73 million for professional 
and cultural exchanges. These include the International Visitor 
Program, which supports travel to the United States by current and 
emerging leaders to obtain firsthand knowledge of American politics and 
values, and the Citizen Exchange Program, which partners with U.S. 
nonprofit organizations to support professional, cultural, and 
grassroots community exchanges.
    <bullet>  This request provides $100 million for exchanges funded 
in the past from the FREEDOM Support Act (FSA) and Support for East 
European Democracy (SEED) accounts.
    <bullet>  This request also provides $31 million for exchanges 
support. This funding is needed for built-in requirements to maintain 
current services.
           contributions to international organizations (cio)
    <bullet>  The fiscal year 2004 request for CIO of $1.010 billion 
provides funding for U.S. assessed contributions, consistent with U.S. 
statutory restrictions, to 44 international organizations to further 
U.S. economic, political, social, and cultural interests.
    <bullet>  The request recognizes U.S. international obligations and 
reflects the President's commitment to maintain the financial stability 
of the United Nations and other international organizations that 
include the World Health Organization, the North Atlantic Treaty 
Organization, the International Atomic Energy Agency, and the 
Organization for Economic Cooperation and Development.
    <bullet>  The budget request provides $71.4 million to support 
renewed U.S. membership in the United Nations Educational, Scientific, 
and Cultural Organization (UNESCO). UNESCO contributes to peace and 
security in the world by promoting collaboration among nations through 
education, science, culture and communication and by furthering 
intercultural understanding and universal respect for justice, rule of 
law, human rights, and fundamental freedoms, notably a free press.
    <bullet>  Membership in international organizations benefits the 
United States by building coalitions and pursuing multilateral programs 
that advance U.S. interests. These include promoting economic growth 
through market economies; settling disputes peacefully; encouraging 
nonproliferation, nuclear safeguards, arms control, and disarmament; 
adopting international standards to facilitate international trade, 
telecommunications, transportation, environmental protection, and 
scientific exchange; and strengthening international cooperation in 
agriculture and health.
     contributions for international peacekeeping activities (cipa)
    <bullet>  The administration is requesting $550.2 million for CIPA 
in fiscal year 2004. This funding level will allow the United States to 
pay its share of assessed U.N. peacekeeping budgets, fulfilling U.S. 
commitments and avoiding increased U.N. arrears.
    <bullet>  The U.N. peacekeeping appropriation serves U.S. interests 
in Europe, Africa and the Middle East, where U.N. peacekeeping missions 
assist in ending conflicts, restoring peace and strengthening regional 
stability.
    <bullet>  U.N. peacekeeping missions leverage U.S. political, 
military and financial assets through the authority of the U.N. 
Security Council and the participation of other states that provide 
funds and peacekeepers for conflicts around the world.
                 broadcasting board of governors (bbg)
    <bullet>  The fiscal year 2004 budget request for the BBG totals 
$563.5 million.
    <bullet>  The overall request provides $525.2 million for U.S. 
Government nonmilitary international broadcasting operations through 
the International Broadcasting Operations (IBO) account. This account 
funds operations of the Voice of America (VOA), Radio Free Europe/Radio 
Liberty (RFE/RL), Radio Free Asia (RFA), and all related program 
delivery and support activities.
    <bullet>  The IBO request includes funding to advance broadcasting 
efforts related to the war on terrorism. The request includes $30 
million to initiate the Middle East Television Network--a new Arabic-
language satellite TV network that, once operational, will have the 
potential to reach vast audiences in the Middle East. The request also 
includes funding to double VOA Indonesian radio programming, 
significantly increase television programming in Indonesia, and expand 
BBG audience development efforts.
    <bullet>  The IBO request reflects the shifting of priorities away 
from the predominantly cold war focus on Central and Eastern Europe to 
broadcasting in the Middle East and Central Asia. Funds are being 
redirected to programs in these regions through the elimination of 
broadcasting to countries in the former Eastern Bloc that have 
demonstrated significant advances in democracy and press freedoms and 
are new or soon-to-be NATO and European Union Members.
    <bullet>  The IBO request also reflects anticipated efficiencies 
that achieve a 5-percent reduction in funding for administration and 
management in fiscal year 2004.
    <bullet>  The fiscal year 2004 request also provides $26.9 million 
through Broadcasting to Cuba (OCB) for continuing Radio Marti and TV 
Marti operations, including salary and inflation increases, to support 
current schedules.
    <bullet>  The fiscal year 2004 request further provides $11.4 
million for Broadcasting Capital Improvements to maintain the BBG's 
worldwide transmission network. The request includes $2.9 million to 
maintain and improve security of U.S. broadcasting transmission 
facilities overseas.
    That finishes the State and Related Agencies part of the 
President's budget. Now let me turn to the Foreign Affairs part.
    the foreign policy advisor responsibilities: funding america's 
                       diplomacy around the world
    The fiscal year 2004 budget proposes several initiatives to advance 
U.S. national security interests and preserve American leadership. The 
fiscal year 2004 Foreign Operations budget that funds programs for the 
Department State, USAID, and other foreign affairs agencies is $18.8 
billion.
    Today, our number one priority is to fight and win the global war 
on terrorism. The budget furthers this goal by providing economic, 
military, and democracy assistance to key foreign partners and allies, 
including $4.7 billion to countries that have joined us in the war on 
terrorism.
    The budget also promotes international peace and prosperity by 
launching the most innovative approach to U.S. foreign assistance in 
more than forty years. The new Millennium Challenge Account (MCA), an 
independent government corporation funded at $1.3 billion will redefine 
``aid.'' As President Bush told African leaders meeting in Mauritius 
recently, this aid will go to ``nations that encourage economic 
freedom, root out corruption, and respect the rights of their people.''
    Moreover, this budget offers hope and a helping hand to countries 
facing health catastrophes, poverty and despair, and humanitarian 
disasters. It provides $1.345 billion to combat the global HIV/AIDS 
epidemic, more than $1 billion to meet the needs of refugees and 
internally displaced peoples, $200 million in emergency food assistance 
to support dire famine needs, and $100 million for an emerging crises 
fund to allow swift responses to complex foreign crises.
    Mr. Chairman, let me give you some details.
    The United States is successfully prosecuting the global war on 
terrorism on a number of fronts. We are providing extensive assistance 
to states on the front lines of the anti-terror struggle. Working with 
our international partners bilaterally and through multilateral 
organizations, we have frozen more than $110 million in terrorist 
assets, launched new initiatives to secure global networks of commerce 
and communication, and significantly increased the cooperation of our 
law enforcement and intelligence communities. Afghanistan is no longer 
a haven for al Qaeda. We are now working with the Afghan Authority, 
other governments, international organizations, and NGOs to rebuild 
Afghanistan. Around the world we are combating the unholy alliance of 
drug traffickers and terrorists who threaten the internal stability of 
countries. We are leading the international effort to prevent weapons 
of mass destruction from falling into the hands of those who would do 
harm to us and others. At the same time, we are rejuvenating and 
expanding our public diplomacy efforts worldwide.
                     assistance to frontline states
    The fiscal year 2004 International Affairs budget provides 
approximately $4.7 billion in assistance to the Frontline States, which 
have joined with us in the war on terrorism. This funding will provide 
crucial assistance to enable these countries to strengthen their 
economies, internal counterterrorism capabilities and border controls.
    Of this amount, the President's budget provides $657 million for 
Afghanistan, $460 million for Jordan, $395 million for Pakistan, $255 
million for Turkey, $136 million for Indonesia, and $87 million for the 
Philippines. In Afghanistan, the funding will be used to fulfill our 
commitment to rebuild Afghanistan's road network; establish security 
through a national military and national police force, including 
counterterrorism and counternarcotics components; establish broad-based 
and accountable governance through democratic institutions and an 
active civil society; ensure a peace dividend for the Afghan people 
through economic reconstruction; and provide humanitarian assistance to 
sustain returning refugees and displaced persons. United States 
assistance will continue to be coordinated with the Afghan government, 
the United Nations, and other international donors.
    The State Department's Anti-Terrorism Assistance (ATA) program will 
continue to provide frontline states a full complement of training 
courses, such as a course on how to conduct a post-terrorist attack 
investigation or how to respond to a WMD event. The budget will also 
fund additional equipment grants to sustain the skills and capabilities 
acquired in the ATA courses. It will support as well in-country 
training programs in Afghanistan, Pakistan, and Indonesia.
              central asia and freedom support act nations
    In fiscal year 2004, over $157 million in Freedom Support Act (FSA) 
funding will go to assistance programs in the Central Asian states. The 
fiscal year 2004 budget continues to focus FSA funds to programs in 
Uzbekistan, Kyrgyzstan, and Tajikistan, recognizing that Central Asia 
is of strategic importance to U.S. foreign policy objectives. The 
fiscal year 2004 assistance level for Uzbekistan, Kyrgyzstan and 
Tajikistan is 30 percent above 2003. Assistance to these countries has 
almost doubled from pre-September 11 levels. These funds will support 
civil society development, small business promotion, conflict 
reduction, and economic reform in the region. These efforts are 
designed to promote economic development and strengthen the rule of law 
in order to reduce the appeal of extremist movements and stem the flow 
of illegal drugs that finance terrorist activities.
    Funding levels and country distributions for the FSA nations 
reflect shifting priorities in the region. For example, after more than 
10 years of high levels of assistance, it is time to begin the process 
of graduating countries in this region from economic assistance, as we 
have done with countries in Eastern Europe that have made sufficient 
progress in the transition to market-based democracies. U.S. economic 
assistance to Russia and Ukraine will begin phasing down in fiscal year 
2004, a decrease of 32 percent from 2003, moving these countries toward 
graduation.
          combating illegal drugs and stemming narco-terrorism
    The President's request for $731 million for the Andean Counterdrug 
Initiative includes $463 million for Colombia. An additional $110 
million in military assistance to Colombia will support Colombian 
President Uribe's unified campaign against terrorists and the drug 
trade that fuels their activities. The aim is to secure democracy, 
extend security, and restore economic prosperity to Colombia and 
prevent the narco-terrorists from spreading instability to the broader 
Andean region. Critical components of this effort include resumption of 
the Airbridge Denial program to stop internal and cross-border aerial 
trafficking in illicit drugs, stepped up eradication and alternative 
development efforts, and technical assistance to strengthen Colombia's 
police and judicial institutions.
   halting access of rogue states and terrorists to weapons of mass 
                              destruction
    Decreasing the threats posed by terrorist groups, rogue states, and 
other non-state actors requires halting the spread of weapons of mass 
destruction (WMD) and related technology. To achieve this goal, we must 
strengthen partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The fiscal year 2004 budget requests $35 million for the 
Nonproliferation and Disarmament Fund (NDF), more than double the 
fiscal year 2003 request, increases funding for overseas Export 
Controls and Border Security (EXBS) to $40 million, and supports 
additional funding for Science Centers and Bio-Chem Redirection 
Programs.
    Funding increases requested for the NDF and EXBS programs seek to 
prevent weapons of mass destruction from falling into the hands of 
terrorist groups or states by preventing their movement across borders 
and destroying or safeguarding known quantities of weapons or source 
material. The Science Centers and Bio-Chem Redirection programs support 
the same goals by engaging former Soviet weapons scientists and 
engineers in peaceful scientific activities, providing them an 
alternative to marketing their skills to states or groups of concern.
                      millennium challenge account
    The fiscal year 2004 budget request of $1.3 billion for the new 
Millennium Challenge Account (MCA) as a government corporation fulfills 
the President's March 2002 pledge to create a new bilateral assistance 
program, markedly different from existing models. This budget is a huge 
step toward the President's commitment of $5 billion in annual funding 
for the MCA by 2006, a 50-percent increase in core development 
assistance.
    The MCA supplement U.S. commitments to humanitarian assistance and 
existing development aid programs funded and implemented by USAID. It 
will assist developing countries that make sound policy decisions and 
demonstrate solid performance on economic growth and reducing poverty.
    <bullet>  MCA funds will go only to selected developing countries 
that demonstrate a commitment to sound policies--based on clear, 
concrete and objective criteria. To become eligible for MCA resources, 
countries must demonstrate their commitment to economic opportunity, 
investing in people, and good governance.
    <bullet>  Resources will be available through agreements with 
recipient countries that specify a limited number of clear measurable 
goals, activities, and benchmarks, and financial accountability 
standards.
    The MCA will be administered by a new government corporation 
designed to support innovative strategies and to ensure accountability 
for measurable results. The corporation will be supervised by a board 
of directors composed of Cabinet level officials and chaired by the 
Secretary of State. Personnel will be drawn from a variety of 
government agencies and nongovernment institutions and serve limited-
term appointments.
    In fiscal year 2004, countries eligible to borrow from the 
International Development Association (IDA), and which have per capita 
incomes below $1,435, (the historical IDA cutoff) will be considered. 
In 2005, all countries with incomes below $1,435 will be considered. In 
2006, all countries with incomes up to $2,975 (the current World Bank 
cutoff for lower middle income countries) will be eligible.
    The selection process will use 16 indicators to assess national 
performance--these indicators being relative to governing justly, 
investing in people, and encouraging economic freedom. These indicators 
were chosen because of the quality and objectivity of their data, 
country coverage, public availability, and correlation with growth and 
poverty reduction. The results of a review of the indicators will be 
used by the MCA Board of Directors to make a final recommendation to 
the President on a list of MCA countries.
                      africa education initiative
    With $200 million, the United States is doubling its 5-year 
financial commitment to the African Education Initiative it launched 
last year. The initiative focuses on increasing access to quality 
education in Africa. Over its 5-year life the African Education 
Initiative will achieve: 160,000 new teachers trained; 4.5 million 
textbooks developed and distributed; an increase in the number of girls 
attending school through providing more than a quarter million 
scholarships and mentoring; and an increase African Education 
Ministries' capacity to address the impact of HIV/AIDS.
     increases in funding for multilateral development banks (mdbs)
    The fiscal year 2004 budget provides $1.55 billion for the MDBs, an 
increase of $110 million over the fiscal year 2003 request of $1.44 
billion. This includes $1.36 billion for scheduled payments to the MDBs 
and $195.9 million to clear existing arrears. The request provides $950 
million for the International Development Association (IDA) for the 
second year of the IDA-13 replenishment, $100 million of which is 
contingent on the IDA meeting specific benchmarks in the establishment 
of a results measurement system. By spring 2003, the IDA is to have 
completed an outline of approach to results measurement, presented 
baseline data, and identified outcome indicators and expected progress 
targets. By that same time, the IDA is also to have completed specific 
numbers of reviews and assessments in the areas of financial 
accountability, procurement, public expenditure, investment climate, 
and poverty.
             world summit on sustainable development (wssd)
    The WSSD engaged more than 100 countries and representatives of 
business and NGOs. Sustainable development begins at home and is 
supported by effective domestic policies and international partnerships 
that include the private sector. Self-governing people prepared to 
participate in an open world marketplace are the foundation of 
sustainable development. These fundamental principals guide the U.S. 
approach to Summit initiatives. At the 2002 Summit the United States 
committed to developing and implementing realistic results-focused 
partnerships in the areas of: Water for the Poor; Clean Energy; 
Initiative to Cut Hunger in Africa; Preventing Famine in Southern 
Africa; and the Congo Basin Partnership. At the end of the Summit new 
relationships and partnerships were forged and a new global commitment 
to improve sanitation was reached. The fiscal year 2004 budget supports 
these partnerships with $337 million in assistance funding.
              the u.s.-middle east partnership initiative
    The President's budget includes $145 million for the Middle East 
Partnership Initiative (MEPI). This initiative gives us a framework and 
funding for working with the Arab world to expand educational and 
economic opportunities, empower women, and strengthen civil society and 
the rule of law. The peoples and governments of the Middle East face 
daunting human challenges. Their economies are stagnant and unable to 
provide jobs for millions of young people entering the workplace each 
year. Too many of their governments appear closed and unresponsive to 
the needs of their citizens. And their schools are not equipping 
students to succeed in today's globalizing world. With the programs of 
the MEPI, we will work with Arab governments, groups, and individuals 
to bridge the jobs gap with economic reform, business investment, and 
private sector development; close the freedom gap with projects to 
strengthen civil society, expand political participation, and lift the 
voices of women; and bridge the knowledge gap with better schools and 
more opportunities for higher education. The U.S.-Middle East 
Partnership Initiative is an investment in a more stable, peaceful, 
prosperous, and democratic Arab world.
        forgiving debt--helping heavily indebted poor countries
    The administration request provides an additional $75 million for 
the Trust Fund for Heavily Indebted Poor Countries (HIPC). These funds 
will go toward fulfilling the President's commitment at the G-8 Summit 
in Kananaskis, Canada to contribute America's share to filling the 
projected HIPC Trust Fund financing gap. The HIPC Trust Fund helps to 
finance debt forgiveness by the International Financial Institutions 
(IFIs) to heavily indebted poor countries that have committed to 
economic reforms and pledged to increase domestic funding of health and 
education programs. In addition, the President's request provides $300 
million to fund bilateral debt reduction for the Democratic Republic of 
the Congo under the HIPC Initiative, as well as $20 million for debt 
reduction under the Tropical Forest Conservation Act (TFCA).
    The administration believes that offering new sovereign loans or 
loan guarantees to indebted poor countries while providing debt 
forgiveness to those same countries risks their return to unsustainable 
levels of indebtedness--a situation debt forgiveness seeks to resolve.
    In order to address this situation, the administration recently 
invoked a 1-year moratorium on new lending to countries that receive 
multilateral debt reduction. U.S. lending agencies have agreed not to 
make new loans or loan guarantees to countries that receive debt 
reduction for 1 year. The measure will not be punitive. Should 
countries demonstrate serious economic gains before the end of the 
moratorium, lending agencies may, with interagency clearance, resume 
new lending. The administration hopes that this policy will bring to an 
end the historically cyclical nature of indebtedness of poor countries.
   american leadership in fighting aids and alleviating humanitarian 
                               hardships
    This budget reaffirms America's role as the leading donor nation 
supporting programs that combat the greatest challenges faced by many 
developing countries today. The fiscal year 2004 budget proposes a 
number of foreign assistance initiatives managed by USAID and other 
Federal agencies to provide crucial resources that prevent and 
ameliorate human suffering worldwide.
                   fighting the global aids pandemic
    The fiscal year 2004 budget continues the administration's 
commitment to combat HIV/AIDS and to help bring care and treatment to 
infected people overseas. The HIV/AIDS pandemic has killed 23 million 
of the 63 million people it has infected to date, and left 14 million 
orphans worldwide. President Bush has made fighting this pandemic a 
priority of U.S. foreign policy.
    The President believes the global community can--and must--do more 
to halt the advance of the pandemic, and that the United States should 
lead by example. Thus, the President's fiscal year 2004 budget request 
signals a further, massive increase in resources to combat the HIV/AIDs 
pandemic. As described in the State of the Union, the President is 
committing to provide a total of $15 billion over the next 5 years to 
turn the tide in the war on HIV/AIDs, beginning with $2 billion in the 
fiscal year 2004 budget request and rising thereafter. These funds will 
be targeted on the hardest hit countries, especially Africa and the 
Caribbean with the objective of achieving dramatic on-the-ground 
results. This new dramatic commitment is reflected in the 
administration's $2 billion fiscal year 2004 budget request, which 
includes:
    <bullet>  State Department--$450 million;
    <bullet>  USAID--$895 million, including $100 million for the 
Global Fund and $150 million for the International Mother & Child HIV 
Prevention; and
    <bullet>  HHS/CDC/NIH--$690 million, including $100 million for the 
Global Fund and $150 million for the International Mother & Child HIV 
Prevention.
    In order to ensure accountability for results, the President has 
asked me to establish at State a new Special Coordinator for 
International HIV/AIDS Assistance. The Special Coordinator will work 
for me and be responsible for coordinating all international HIV/AIDS 
programs and efforts of the agencies that implement them.
                 hunger, famine, and other emergencies
    Food Aid--Historically the United States has been the largest donor 
of assistance for victims of protracted and emergency food crises. In 
2003, discretionary funding for food aid increased from $864 million to 
$1.19 billion. That level will be enhanced significantly in 2004 with 
two new initiatives: a Famine Fund and an emerging crises fund to 
address complex emergencies.
    Famine Fund--The fiscal year 2004 budget includes a new $200 
million fund with flexible authorities to provide emergency food, 
grants or support to meet dire needs on a case-by-case basis. This 
commitment reflects more than a 15 percent increase in U.S. food 
assistance.
    Emerging Crises Fund--The budget also requests $100 million for a 
new account that will allow the administration to respond swiftly and 
effectively to prevent or resolve unforeseen complex foreign crises. 
This account will provide a mechanism for the President to support 
actions to advance American interests, including to prevent or respond 
to foreign territorial disputes, armed ethnic and civil conflicts that 
pose threats to regional and international peace and acts of ethnic 
cleansing, mass killing and genocide.
                                summary
    Mr. Chairman, members of the committee, to advance America's 
interests around the world we need the dollars in the President's 
budget for fiscal year 2004. We need the dollars under both of my 
hats--CEO and principal foreign policy advisor. The times we live in 
are troubled to be sure, but I believe there is every bit as much 
opportunity in the days ahead as there is danger. American leadership 
is essential to dealing with both the danger and the opportunity. With 
regard to the Department of State, the President's fiscal year 2004 
budget is crucial to the exercise of that leadership.
    Thank you and I will be pleased to answer your questions.

    Chairman Nussle. For my colleagues' benefit I am going to 
ask that all of us not only stick to the 5-minute rule today 
but let's also please stick to questions. There are a number of 
colleagues who have important questions they want to ask. The 
Secretary is only going to be with us until 12:30. We may have 
a vote on the floor, so let's please do that.
    Mr. Secretary, on the technology issue, just to let you 
know, the Budget Committee has just launched a new, I think, 
exciting program on our Web site. We now provide our Web site 
in eight different languages so that--including an obscure and 
little-used language now, French--I am being very careful. I am 
trying to be. I am holding back.
    Mr. Secretary, on the HIV/AIDS program that the President 
has put forward, I would like to ask you to do two things for 
us. We have a number of constituents who heard the President 
speak at the State of the Union and were surprised maybe by the 
commitment that he made in the State of the Union. They haven't 
been to Africa. Because terrorism, because Iraq, because North 
Korea, because all sorts of things occupy all of the different 
news channels on a daily basis, unfortunately, some of the 
biggest issues that face our world don't always get the 
attention that they should. Many of our constituents don't have 
the same experience that you have and that some of us have in 
having seen it firsthand.
    They ask the question or they wonder out loud, why are we 
doing this? Why is--why aren't we dealing with problems in 
America first, Medicare and even AIDS in America first before 
we start reaching out to the continent of Africa or anywhere 
else? Those are problems they cause for themselves, behavioral 
problems that they caused. Money won't solve it. This is a 
hopeless situation. How could we possibly have enough money in 
our Treasury or pay enough taxes in order to manage this 
disease?
    Would you please respond to those people today in a way 
that can help us all educate our constituents back home, No. 1; 
and, No. 2, would you also talk to us a little bit about how 
this money will be used.
    My understanding from traveling there is that it is not 
just the drugs, it is the counseling, it is the mentoring, it 
is the education, it is the advertising, awareness, it is the 
networking that needs to go on and the trust relationship that 
has to be built in some countries. Because they are using 
erroneous information, suggesting that this is some, you know, 
grassy knoll plot against their country versus some countries, 
that their government officials are directly involved in the 
advocacy case to control HIV. So would you speak to this in a 
lilt bit more depth than you did in your opening testimony?
    Secretary Powell. We spent a lot of money on HIV/AIDS in 
our own programs right here at home. We saw what this disease 
has done right here at home. It is still a problem here in the 
United States. We worked hard to start to get on top of it, but 
it is still a problem for many, many Americans. We are a care-
giving, compassionate country and people; and we simply cannot 
look out across our oceans and see this kind of plague upon the 
world and think that it has nothing to do with us.
    These children, these are God's children, and we have an 
obligation to help them. We have an obligation as a caring, 
giving, rich society to share our wealth and treasure with 
those who are less fortunate. Even though they may not look 
like us, may not be the same color as most of us, are living in 
a faraway place, speaking a strange language, they are 
nevertheless human beings; and if we have the wherewithal to 
help them, we should.
    And we can help them. It is not money going down a rat 
hole. We need multifaceted programs. As you noted, Mr. 
Chairman, one of the first things we have to do in all the 
countries we are working on is to start educating people with 
respect to the dangers of HIV/AIDS and improper sexual 
activities that will put you at risk of getting the infection. 
That training, that education, has to begin at the earliest 
opportunity in schools. We should teach youngsters how to avoid 
premature sexual activity. We should teach abstinence, but we 
should also teach safe sex. Because, sooner or later, young 
people will become sexually active, and we should not hide from 
that fact. We should teach them to protect themselves and teach 
them abstinence, teach them protection, help these countries 
get beyond some of the cultural taboos that keep them from 
talking about these issues frankly and candidly.
    One of the most successful countries in dealing with this 
problem has been Uganda. President Museveni said, ``I don't 
care what tribal rituals are, or how I am not supposed to talk 
about this. I am going to talk about this. It comes from 
improper sexual activity. It comes from not protecting 
yourself. It comes from not talking to our children. It comes 
from not being socially responsible with respect to sexual 
partners.'' He was candid about it, as candid as I am being 
with you this morning. And he changed the attitude that existed 
within the population of Uganda, and he brought the infection 
rate down significantly, as you well know.
    We have to go beyond just teaching and education and 
training and lecturing. We have got to give people the 
medicines that are increasingly more affordable that will deal 
with the infection and give people hope, that if we work on 
this problem correctly, if we do everything we can to get the 
cost down, there are drugs that can let people have a full, 
productive life, not as full as it might be otherwise or as 
long as it might otherwise, but still make a contribution to 
society.
    We can do something to keep the disease from being 
transmitted from mother to child. That is one of the 
President's major initiatives, with a very high success rate, 
and it is cheap. It would be irresponsible not to give every 
child who is subject to the infection that opportunity to be 
rid of the infection with the kind of treatment and the 
provision of the necessary drugs.
    We also have to be straightforward and say to people there 
should be no stigma associated with being infected, or having 
the disease, or carrying the infection. We have to make sure we 
don't talk down to a group of people and say you are less 
worthy than anyone else because have you this infection.
    We have to fight it at all fronts: protection, abstinence, 
training, education, antiretroviral drugs, dealing with the 
other diseases that flow from it, tuberculosis, malaria and the 
other infections you become susceptible to, and also to avoid 
stigmas.
    In some of the countries, as you noted Mr. Chairman, this 
is the toughest part. People just don't want to talk about 
this. It goes against some of their history. It goes against 
some of their culture. It goes against, in some cases, their 
religion. But when you don't talk about these issues, when you 
don't talk about them head on, you are condemning to death 
millions of your most productive citizens, the citizens you are 
going to need to keep moving forward.
    The United States cannot stand idly by and watch this 
happen. Knowing that if we don't help them, these countries 
will become political problems, they will become economic 
problems that we are going to have to deal with later. As you 
also noted, Mr. Chairman, they will become hotbeds of terrorist 
recruiting.
    If a child has nobody in his or her life, if a child sees 
the richest countries of the world ignore their problem, that 
child will say, well, what should I do? What direction should I 
move into? The first charlatan that comes along and says, we 
ought to take them out, we ought to build bombs, we ought to go 
kill people; what are they doing for you? That charlatan will 
win the argument. We can't let that person win the argument.
    That is why we have $1.3 billion in this budget for my part 
of this battle and Secretary Thompson has more dollars in his 
budget, for what he has to do. Not only here in the United 
States but what we do in the United States ultimately gets 
exported to the world.
    Chairman Nussle. Thank you very much for your leadership.
    Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman.
    I am going to give the Secretary three areas of inquiry and 
he can choose how he decides to emphasize his response.
    The first area I want to ask you about is something that I 
referenced in the opening statement that deals directly with 
our budget responsibilities, and that is the needs of our 
allies and at least friends in the region for additional 
assistance, particularly with regard to the impending Iraq 
conflict. Israel has asked for $12 billion, about $4 billion in 
grants, about $8 billion in loan guarantees. I would like to 
know your assessment of that and the extent to which we are 
going to use that as leverage with regard to settlement 
expansion, et cetera.
    Egypt, we know, is going to want 3 to $5 billion; Jordan, I 
know, has told some of us that they are expecting nearly $2 
billion; and then we have got Turkey and Pakistan. Particularly 
I know you are concerned, rightfully so, that Musharraf is in a 
precarious position because of his perceived friendship with 
the United States; and, of course, a military coup would give 
people sympathetic to the Taliban even within his own military, 
who we know exist, immediate access to a substantial number of 
nuclear weapons. Some--all of these countries we are very much 
concerned with and are going to have to deal with; and I would 
like to get some sense of what you think might be coming, 
whether it is in a supplemental or future budget request.
    Now, with regard specifically to Iraq, I think we were all 
very much impressed by the compelling arguments you made before 
the United Nations Security Council as to the consequences of 
not going to war with Iraq. But just speaking for myself, I 
think you were less clear on what are the consequences if we do 
go to war with Iraq. Even your response this week to the 
message by bin Laden on Al Jazeera television, I don't know 
that the fact that bin Laden is attempting to exploit the 
impending invasion of Iraq for the purpose of his al Qaeda 
terrorist network is proof positive of a hand-in-glove 
relationship with Saddam's despotic use of the Baathist party 
in Iraq.
    So I would--I think what we would like to get a clearer 
sense of is what do we do when we go in and we are told it is 
weeks rather than months, that there needs to be a ratio of 
approximately 1 per 500 citizens. If you have a military 
occupation, we are told it is an indefinite military occupation 
until we find a leader that is to our liking.
    I asked Secretary Rumsfeld yesterday, how many people do we 
have that speak the language? And at best we have about a 
hundred people learning how to speak the language. It is a 
country of 23 million people. You would assume that that means 
we need about 50,000 who can actually communicate with the 
people. We are nowhere near that.
    Now I bring this up because he implied that they are going 
to heavily rely upon State Department personnel for much of 
that function. So I thought I might bring it full circle and 
get some response from you.
    Then, lastly, in the paper today, I understand that the 
North Koreans have sought direct talks with the United States 
but have been rebuffed; and in light of what some of us think 
is our most serious threat in North Korea, the urgency of 
direct talks with North Korea would seem to be imperative. So I 
would like to know what you plan to do in terms of at least 
initiating or responding to North Korea's suggestion for direct 
talks.
    There is enough to deal with. You choose how you want to 
divide your response, Mr. Secretary.
    Secretary Powell. Thank you very much, sir.
    Let me go back to the first one you mentioned in your 
opening statement with respect to the cost once we go into 
Iraq. In terms of how much will the U.S. percentage be, how 
long will it be there and what will we have to provide to our 
allies, which gets to your other question.
    A lot of the answers to these questions are simply not 
known and can't be known until you see how such a conflict, if 
it comes--we still hope it can be avoided--and you find out how 
it unfolds.
    What we are doing is making contingency plans that would 
cover a full range of possibilities, but it is hard to put 
numbers to these various contingency plans, and I don't think 
that we have solid numbers that we should offer to the 
Congress, because they would be embedded in stone, and we 
really are not sure. What we are doing is stockpiling 
humanitarian supplies, working with the U.N., that is also 
stockpiling humanitarian supplies, in close contact with the 
EU, which is also taking action to position itself, and a 
number of other private nongovernmental organizations that are 
preparing themselves for whatever humanitarian needs might be 
required after a conflict in Iraq.
    I don't think that one should assume that the country is 
going to be devastated by a conflict. People talk about the 
reconstruction of Iraq, but it is not going to be like 
Afghanistan. This is a society and a system that right now is 
functioning. It has institutions that function. It has a 
bureaucracy that is very effective. It has a middle class. It 
has an educated population. It has something else. It has $20 
billion of oil revenue a year. So this is not like Afghanistan, 
where everything had to come up from out of the dust. There is 
a functioning society there.
    What it has, though, is a horrible leadership; and I would 
hope that the conflict would be short, it would be directed 
principally at the leadership and not at the society. That 
certainly is our goal. We don't go after people. We don't go 
after societies. We go after weapons, we go after military 
units, and we go after the leadership that is controlling all 
of this.
    If we were to successfully remove the leadership, we would 
try to build as much as we can on the institutions that are 
there. It would not be necessary for us to have 50,000 people 
who could speak the language to go to every village throughout, 
but essentially use the infrastructure that is there. Once it 
has been purged of leadership that does not want to be part of 
a new country, a new political system that has gotten rid of 
its weapons of mass destruction and is committed to live in 
peace with its neighbors and become a responsible member of the 
21st century, once we got rid of those who were not committed 
to that, then I think you have a great deal to work with.
    Then the challenge would be to put in place a 
representative leadership, and this is a country with no 
democratic tradition. That will take some time. There are 
people outside those in the resistance as well as those inside 
who I think can be used to start to put in place a form of 
government that would accomplish the goals that I have just 
described.
    I think at the outset of a military operation, certainly 
the military commander who goes in to remove the leadership 
assumes responsibility for being in charge of the country for 
some period of time. This shouldn't be surprising to anyone. It 
has happened in every other conflict. It happened in 
Afghanistan when General Franks initially went in, but it would 
be our goal to quickly transition from military leadership. We 
don't want an American general running a Muslim country for any 
length of time.
    How long will it take to transition to civilian leadership, 
either an American civilian initially or an international 
figure or an international arrangement of some kind, and to 
transition through that as rapidly as possible to an Iraqi 
government that is representative of its people? Everybody is 
dying to find out the answer to the question.
    One of my undersecretaries the other day said that some aid 
programs can take up to 2 years to come into fruition and to 
show success. That was immediately grabbed on as we saying that 
we are going to be there for 2 years, no longer.
    We just don't know at this point, but we have to be 
prepared for a fairly long-term commitment, a commitment that 
will change in shape, scope and dimension over time. Initially 
military, quickly transitioning to civilian organizations, 
quickly transitioning, I hope, to the international community 
and then never losing sight of as rapid a transition as 
possible to the Iraqi people.
    The advantages here, the reason this situation is 
different, is there is an infrastructure I don't expect the 
country to be devastated. The Oil for Food Program exists as a 
way of delivering supplies to the society if we can keep the 
Oil for Food Program intact and there is money that will be 
available if the oil fields are not destroyed, or if they are 
damaged, we restore them quickly.
    We are looking at a full range of options from a walk in 
the sun, to destruction of the oil fields, much more 
destruction of the infrastructure by the outgoing regime than 
we might have anticipated. We are looking at a full range of 
options to be ready for any one of these, whether it is an 
optimistic outcome or not-so-optimistic outcome. But I can't 
honestly give you a military estimate of how long it will take 
or, for that matter, a State Department estimate or tell you at 
this point what the overall cost would be.
    I do know that we won't bear it alone. There are a number 
of nations who have signed up to be a part of a coalition of 
the willing or under U.N. resolution, and the major 
international organizations. In fact, today Kofi Annan is 
having meetings about this subject. Major international 
organizations are gearing themselves up to be a part of the 
aftermath.
    Mr. Moran. Thank you.
    Secretary Powell. On the various countries and their 
requests, as you rightly noted, Mr. Moran, they are not in our 
budget at the levels that are being suggested. All of them are 
under consideration.
    With respect to your specific question about Israel, we 
know of their requirements. We fully understand their needs. No 
decision has been made within the administration yet as to what 
we will do.
    Mr. Moran. Thank you, Mr. Secretary.
    Chairman Nussle. Mr. Shays.
    Mr. Shays. Mr. Secretary, thank you for your good work.
    Secretary Powell. I will get to North Korea later.
    Mr. Moran. Thank you, Mr. Secretary.
    Mr. Shays. Mr. Secretary, thank you for your good work.
    I just want to take this opportunity--two seats next to you 
is a gentleman, your Chief Financial Officer, Christopher 
Burnham. I just want to point out that he served in the State 
House after I vacated that seat to be in Congress; and when I 
had to vote on deciding whether or not to send troops to the 
Gulf War, his mom and dad called up and said, don't do this. We 
will lose too many men and women. Chris Burnham, a reserve 
officer in the Marines, called me up and said we need to go. 
When I voted to send our troops into battle, I knew I was 
sending Chris Burnham, and I will never forget that call to me.
    The National Security Subcommittee of Government Reform, 
which I chair, has oversight responsibilities to the Department 
of State; and I want to say to you that I have seen gigantic 
improvement in the morale of the men and women who serve. I 
have seen significant improvement in the management and 
administrative practices of the Department, great improvement 
in technology; and I just want to say, keep it up. I also want 
to say the quality of the men and women who serve you and serve 
our country, they are extraordinarily dedicated, they are 
intelligent, they are competent, they are motivated public 
servants, and I rejoice in the opportunity of meeting with them 
when I go overseas.
    My question involves right-sizing of overseas deployment of 
our presence there. We have lots of different government 
agencies; and I am struck by the fact that the State Department 
is really being asked to house them, protect them at 
significant cost. I keep hearing that the administration--and I 
am aware that OMB is promoting having a surcharge. In other 
words, let the agencies that want to be there pay the costs. I 
would like you to tell us whether we are making progress.
    Secretary Powell. We are working on it, Mr. Shays, and 
making some progress. I fully believe in the cost-sharing idea. 
We have some of our embassies that have as many as 30 other 
government agencies working under the country team concept, 
under the supervision of the ambassador. The ambassador has 
presidential responsibility for the safety, security and 
management and administration of all of these folks. I believe 
it is quite appropriate for these departments to pay their fair 
share, especially when you have a crisis somewhere.
    Say you have an embassy that has normally 150 people, but a 
crisis breaks out, and agency after agency from Washington 
sends over TDY detailees. You can double and triple the size of 
the mission in short order. All of that incremental cost has to 
be dealt with, and just the span of control of the ambassador 
and the ability of his admin officer and security people at the 
embassy to manage that situation becomes more difficult and we 
have to go outside to get more people in just to support people 
from other departments.
    To the extent that we can lay that burden off 
appropriately, not inappropriately, but get others to bear 
their share of the cost is a sensible management technique, and 
we are certainly working on it with OMB.
    Mr. Shays. Yes. It would strike me that a free service is 
basically going to be overutilized.
    I don't want you to go into your red light, but I want to 
ask this question. I made an assumption that we would help pay 
for the cost of going into Iraq by having the oil revenues of 
Iraq pay for that. The administration came out against that; 
and, with hindsight, I am getting the sense that there is just 
a concern that people would misunderstand our motive if we did 
that. So, to make sure there is no question at all, we wanted 
to be clear these reserves are going to be used for the Iraqi 
people?
    Secretary Powell. I think people would misunderstand the 
motive. The more basic issue is that, under international law, 
if we go in as an occupying force for some period of time and 
we assume responsibility for that country, we have an 
obligation to use the assets of that country, the wealth of 
that country for the benefit of its people. For that reason and 
to make sure nobody misstates our motive in this, we are saying 
loud and clear that the oil of Iraq belongs to the people of 
Iraq; and during that period of time when we would have 
responsibility for the country we will protect this asset that 
belongs to the Iraqi people and use it for the right purpose, 
consistent with international obligations that we take on as 
the occupying force.
    Mr. Shays. Thank you. I yield back.
    Chairman Nussle. Ms. Baldwin.
    Ms. Baldwin. Mr. Secretary, thank you for appearing here 
today, and thank you for your service to this country.
    I have two questions. The first reflects a very big 
question that my constituents are asking me, and the other is a 
little bit more specific. Like Mr. Moran, I will invite you to 
choose to emphasize in your time to answer whichever you would 
like or both.
    As you know, I and many Americans are extremely concerned 
about the possibility of war with Iraq. From the onset, 
concerns have been raised about the wisdom of such an armed 
conflict, about the suffering that it would provoke, about the 
wisdom of committing our men and women in uniform to a conflict 
that has the potential to expose them to biological and 
chemical weapons, and perhaps even house-to-house combat. I 
very much share those concerns. I know you have struggled with 
them yourself. But today, Mr. Secretary, I want to focus on the 
impact that this showdown has had on our relationship with the 
United Nations, NATO, our friends, our allies, and our 
adversaries. Because many people have raised serious concerns 
about the negative effects that that is going to have on our 
ability to fight terrorism and to protect the American people, 
where allies in all corners of this globe are so important and 
so vital. So I am being asked just how many bridges and 
relationships we are willing to strain and how we are going to 
repair those strained and sometimes broken relationships.
    Teddy Roosevelt used to say, speak softly and carry a big 
stick, but I don't think anyone is going to accuse the United 
States and this administration of speaking softly at this 
moment in history. Even Henry Kissinger had warned us that, no 
matter how powerful our military is, seen in the terms of 
politics and international relations, we are not strong enough 
to protect ourselves if we are not without friends.
    So, Mr. Secretary, I am highly concerned about the impact 
that this conflict has had on the United Nations, NATO, and 
international law. These are institutions in a system that we 
created and with American leadership in a post-war era to 
provide a framework for peace and security; and I believe that 
this system, while far from perfect, has served us well. Yet 
our current path ignores or disregards some of the spirit of 
these international agreements. It may allow us to get what we 
need in the short run, but it is extremely dangerous for a 
long-term stability in the world.
    So my first question is, how will the administration repair 
relationships with our friends and allies and rebuild and 
strengthen these international institutions?
    My second question relates to what I fear is a subtle 
erosion of the Department's ability to perform some of its core 
functions. I think the President's budget proposal in recent 
actions seem to shift some power from State to the White House. 
Specifically, I am thinking about the President's recently 
signed executive order formalizing the role of the White House 
Office of Global Communications in the Nation's public 
diplomacy overseas. Doesn't this, in fact, take away a vital 
role from the State Department, one of whose roles is public 
diplomacy?
    This combined with the administration's proposal that the 
Millennium Challenge Account not be administered by USAID and 
the Department of State--although you, of course, will chair 
the function--it raises concerns about the Department's ability 
to carry out both parts of its mission as a first line of 
defense and a first line of effective representation of 
American values and interests abroad.
    Are we witnessing a slow or subtle erosion of State 
Department authority through these subtle policy shifts, even 
when the numbers may seem to be increasing?
    Secretary Powell. Thank you, Ms. Baldwin. Let me talk to 
the first issue.
    The President went to the United Nations last September and 
he spoke clearly; one might say softly, one might say directly, 
but he spoke clearly to the international community when he 
said Iraq has been in violation of its obligations through 16 
previous U.N. resolutions, its obligations to disarm its 
weapons of mass destruction. He didn't run out and start a 
unilateral war. He said to the United Nations, what are we 
going to do? What value does this institution have if its 
resolutions repeatedly are simply ignored by one dictator?
    If this institution is to have relevance, we have to be 
prepared to impose serious consequences on a nation that so 
ignores its obligations under the resolutions of this body. It 
isn't just ignoring some little policy item or dictate. It was 
developing weapons of mass destruction, chemical, biological, 
nuclear weapons that this dictator had demonstrated a 
willingness to use against his own people, against his 
neighbors.
    He invaded two of his neighbors, used chemical weapons, and 
was known by previous United Nations inspectors to have 
anthrax, botulitum toxin, a lot of other terrible, terrible 
things, and he had not accounted for what he did with it. Then 
created a set of circumstances in 1998 which forced the 
inspectors out.
    The President went to the United Nations and said we have 
to do something about this. That was neither unilateral nor 
heavy-handed. It was an act of leadership on the part of the 
President to do that.
    In the following 7 weeks, we worked very hard. I worked 
very hard, my colleagues in the Security Council worked hard to 
come up with a resolution that is the now famous 1441. It said 
Iraq is guilty. It didn't say where is the evidence? It started 
out in its first operative paragraph by saying Iraq is guilty. 
We have the evidence. Anthrax and botulitum are missing. Iraq 
is guilty. It is guilty of material breaches in the past. Those 
breaches continue into the present.
    Second, we will give Iraq a way to get out of the problem 
if it comes clean. The whole burden of this resolution was 
placed upon Iraq, not on the inspectors.
    The resolution said that we will give inspectors 
strengthened powers to do their job if Iraq cooperates and 
complies with the resolution.
    Fourth, it said if Iraq does not comply and enters into new 
material breaches, serious consequences will follow.
    Iraq started to let inspectors in suddenly after 4 years. 
Why? Because they were persuaded by the logic of the 
resolution? No. They saw American troops moving. They saw that 
we were deadly serious about serious consequences, and suddenly 
Iraq started doing things.
    What they didn't do was what the resolution called for them 
to do, come into compliance and get rid of the weapons of mass 
destruction. If they had done that, we wouldn't be where we are 
right now. If they do it tonight, we wouldn't be where we might 
be in a few weeks. We have demonstrations planned for this 
weekend, and there is a great deal of controversy on this 
issue, but the burden was placed on Iraq, not on the United 
States.
    It is the United States and the United Nations that have an 
obligation to see that the resolutions of the United Nations 
are obeyed. What we have seen so far is continued misbehavior 
by Iraq.
    Even though one can question the strength of the linkages 
between al Qaeda and Iraq, I believe there is enough evidence 
out there that there is something we should be concerned about 
as a minimum because of this nexus between terrorism and 
weapons of mass destruction. Even though individually Osama bin 
Laden and Saddam Hussein might hate each other, they found a 
community of interest here--terrorism and weapons of mass 
destruction.
    I think that the United States is in a strong position here 
with respect to what we think the United Nations should do. We 
are approaching the time when the United Nations cannot ignore 
what Iraq has been doing for the last 3 months. We will hear 
from Dr. Blix and Dr. El Baradei, and then a debate will begin 
as to what should be the next step.
    Some suggest we just double or triple the number of 
inspectors. It isn't a lack of inspectors that is causing a 
problem. It is Iraq's noncompliance. I am sorry but this is a 
diversion. Or give them more technical capability. Dr. Blix 
would love any additional support he gets, but, as he has 
said--he has said, not Colin Powell--he has said Iraq still 
doesn't understand that it has to disarm.
    We have got to stay on the track that we are on, and we 
have to make it clear to Saddam Hussein that he will be 
disarmed of weapons of mass destruction one way or another. 
This has caused strains within NATO and within the United 
Nations, as you have said, but NATO and the United Nations are 
resilient institutions that have undergone strain over their 50 
years of existence. In my roughly 20 years of public service at 
an exceptionally high level, there have always been debates and 
disagreements within NATO and within the United Nations, and we 
will find a way through these disagreements, or if we can't 
fine a way through, then we will have to act.
    NATO and the U.N. have found in previous crises where you 
can't get NATO agreement or U.N. agreement action happens 
nonetheless, with the coalition of the willing, such as 
happened in Kosovo; and sometimes we have to act unilaterally 
as we did in Panama.
    The institutions have a history. They are needed. And 
whatever strains exist now, I think they are strains that can 
be managed and in due course. Because there is such a need for 
these two strong, powerful institutions, and they have such a 
history of success. We will get through these troubled times.
    Let me just talk quickly on your two points. On both White 
House Office of Global Communications and Millennium Challenge 
Account, I don't feel threatened. We need a global 
communications office in the White House, because if it is just 
the State Department doing its thing and saying this is all 
mine, I will do it through my international programs, then we 
aren't always that well coordinated with what the Pentagon 
might be doing and vice versa.
    Communications have become such a complex business in this 
24/7 world where you have got to be up to date, you have got to 
get the information out, that there was a need for an 
overarching communications effort. To show you how it works, 
the Office of Global Communications is putting out now a daily 
sheet of messages on what we should be saying as a government. 
I just instructed my staff this past Monday morning to make 
sure that sheet gets out electronically to every embassy in the 
world. I want every ambassador to see this so they know what 
the whole government is thinking, not just what the State 
Department is thinking.
    I don't feel challenged by that, and we are working closely 
with the new office.
    With respect to the Millennium Challenge Account, I am the 
chairman of the board of directors. What the President wanted 
to do is to make the MCA look different. It was not to be just 
aid as usual, but a new kind of focused aid for those nations 
moving toward democracy.
    We looked at a lot of models and felt that something that 
was free-standing as an independent department, but working 
closely with USAID, and can't just go off by itself. We have to 
reconcile these programs, and I think in my role as chairman of 
the board of directors, I have the opportunity to make sure 
that there is integration and a merger of activities between 
the Millennium Challenge Account and what AID is doing.
    Finally, the President announced the new global initiative 
for HIV/AIDS in his State of the Union Address, and in this 
instance he saw fit to place it wholly within the State 
Department.
    It is a matter of finding the right solution for the 
particular problem, and I don't feel that the White House is 
trying to gut me. And I thank the President for giving me the 
global initiative on AIDS, because we will do it well in the 
Department.
    Chairman Nussle. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman; and thank you, Mr. 
Secretary, for your service to the country.
    Let me clarify one thing about Teddy Roosevelt, before we 
have too much revisionist history here. He was not bashful 
about using that stick, and I think sometimes we forget that 
part.
    The other thing I want to mention, when you talked about 
the children--and it really is true that the real benefactors 
of our foreign policy I think are children, whether it is in 
sub-Saharan Africa, Afghanistan, or Iraq, the whole benefactors 
are the children.
    One thing that I would add to your list of accomplishments 
of what we have done in Afghanistan, the people need to be 
reminded of, is that for the first time in many parts of 
Afghanistan in almost 20 years little girls are going to school 
for the first time, and that happened because of brave 
Americans like the ones you described aboard that aircraft 
carrier.
    But at the end of the day this is the Budget Committee, and 
our job is to try and squeeze $2.5 trillion worth of requests 
into about a $2 trillion package. So what I want to get at is 
in terms of the budget and how we are going to make this all 
work, because it is about children. We have heard a lot of 
economic theory in the last couple of weeks in terms of tax 
cuts and what it does to the economy, but let me give you an 
economic fact. Government will be paid for. It will either be 
paid for now or it will be paid for in the future by our 
children with interest. So that is a tough job, and I want to 
get to a couple of tough questions for you.
    One is--and I didn't really hear a very good response--and 
that is what commitments has the administration made to some of 
our allies that could be very expensive in the future? Whether 
we are talking about Turkey or whether we are talking about 
Israel, any of the other countries in the region, it seems to 
me the administration does have an obligation to share with us 
what kind of commitments they have made, because the power of 
the purse is vested here.
    Then the second question is, how are we going to pay for 
this effort in Iraq? Many of us are old enough to remember that 
when we had the first confrontation with Saddam Hussein we were 
able to get our allies to literally pick up all of the expenses 
of that military effort, and as I recall the costs were about 
$53 billion. Can you share with us more of who is going to pay 
for this effort?
    Because going back to the effort in the Balkans and in the 
former Yugoslavia, those were NATO efforts, and I think our 
obligation to NATO is to pick up about 25 percent of the cost. 
As I recall, we ended up picking up well over 75 percent of 
those costs. It seems to me we have got to work together to 
make certain we have a clear understanding of how much this is 
going to cost and who will pay for it.
    Secretary Powell. With respect to commitments we have made 
to various countries, we are in discussions with all of the 
countries that were mentioned earlier on what their needs might 
be now or in the event of a conflict, and most of these amounts 
are not yet programmed for in the 2004 request that you have 
before you. There will certainly be a need to come forward 
through supplemental action to request more funds.
    I don't have a specific number that I can give you today, 
sir, because not all of this has been worked out yet. In fact, 
I was having discussions with a Turkish delegation that is here 
this morning before coming up here, but as soon as we have a 
handle on this entire package, we will be coming forward to 
discuss it with the Congress.
    With respect to the cost of this war and how to pay for the 
cost, it is not going to be quite the same, I don't think, as 
the Gulf War. It will be a different kind of coalition. I am 
not sure under what authority it will be conducted under, if we 
do have a conflict, whether it will be under U.N. resolution or 
whether it would not be, just a coalition of the willing, and 
the sources of funds that were available to President Bush back 
in 1991 in various countries isn't quite the same as it is now. 
We have begun discussions within the administration, 
discussions with some of our friends and allies about our 
expectation that they would assist with paying the costs of our 
operation as well as the cost of whatever might be required in 
Iraq afterwards, but I don't have a specific number that I can 
give you today or a percentage.
    Chairman Nussle. Mr. Moore.
    Mr. Moore. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. I am very grateful 
for the experience, for the compassion and for the wisdom that 
you bring to the office, the high office you hold.
    I want to just talk about two or three areas and get you 
again to comment, if you can and if you will, please, as you 
have time.
    Chairman Nussle. If the gentleman, just for--because the 
Secretary is only here for another hour and we have a number of 
members, if we keep asking three questions, use 5 minutes and 
then allow him to answer three questions, we are going to run 
out of time. So I would--obviously, you can use your 5 minutes 
how you would like, but I would ask members to try and keep it 
within that 5 minutes so that the Secretary can answer as many 
questions from members as possible.
    Mr. Moore. Thank you, Mr. Chairman. I will be brief here 
then.
    Recent newspaper reports indicate that North Korea has 
attempted to engage in discussions with our country and that 
they feel that they may have been rebuffed. I would like to 
know if this is true, and are we able to multitask here to 
concentrate and focus on what is happening in Iraq and the 
situation there and at the same time engage in talks with North 
Korea? Because that could be obviously a very hot spot, and I 
know you know that better than any of us here in this room?
    No. 2, news reports again indicate that there have been 
recent discoveries of missiles in Iraq that may have longer 
range than is permissible. What effect might that have on Dr. 
Blix's report tomorrow, as you have indicated?
    Finally, the last question, I will just give you the rest 
of my time to try and answer as you can to comply with the 
chairman's request here. I leave on Saturday with a bipartisan 
group of Members of Congress to meet with parliamentarians and 
the NATO allies. Anything that I can convey to our friends and 
German friends?
    Thank you, Mr. Chairman--or Mr. Secretary.
    Secretary Powell. On the second point, the missiles that 
were found to violate the U.N. restriction of 150 kilometers, I 
won't prejudge what Dr. Blix will say tomorrow, but I think 
this is a serious matter. If that is what he confirms tomorrow 
in his presentation, it shows continued Iraqi noncompliance. I 
think it could be a serious matter, and I look forward to Dr. 
Blix's report. I will be up there at the Security Council to 
hear it.
    With respect to NATO, I hope you will convey to my French 
colleagues, and other members of the alliance the position that 
I took here earlier today, and that is that 1441 has to have 
force behind it. It can't just keep going on and on and on with 
inspections in the presence of Iraqi noncompliance. The issue 
is Iraqi compliance, not how many inspectors for how long. We 
cannot allow ourselves to be diverted from the task at hand, 
which is the disarmament of Iraq. The disarmament of Iraq can 
take place tomorrow morning if Saddam Hussein cooperates in the 
way intended by 1441.
    On your first point with respect to North Korea, we have a 
number of channels that we are using to talk to the North 
Koreans, as well as our own direct channel, a bureaucratic 
channel that we have to talk to the North Koreans.
    What we said to them is that we are deeply concerned that, 
as a result of the previous time we talked directly to you in 
setting up the agreed framework, we thought we had put the 
genie back in the bottle and a cork in the bottle with respect 
to nuclear programs. The previous administration that 
negotiated that agreement was unaware, and we were unaware for 
the first year of this administration that you had another 
bottle with another genie trying to develop nuclear weapons in 
another way, through enriched uranium and not through plutonium 
reprocessing.
    This is a very serious matter. We referred it to the IAEA, 
which yesterday referred it to the United Nations Security 
Council. What we said to the North Koreans is that we are 
willing to talk to you, but it can't just be the United States 
and the DPRK. We have to find a way to have other concerned 
nations involved.
    China is threatened. Russia is threatened. South Korea is 
threatened. They are all encouraging us to talk to North Korea 
as well. We are willing to do that, but we believe this time we 
have to have a regional understanding, a regional settlement, 
and that is what we have been pressing on the North Koreans. 
But the North Korean position so far has been no, that is 
strictly between the United States and the DPRK, and that is 
the only basis upon which we will talk to the United States.
    We believe we have to find a way to broaden that dialogue, 
because so many other countries have an interest in it, and so 
many other countries are affected by it. We still think there 
is a possibility of diplomatic solution. Even the North Koreans 
have said that. We are watching carefully, and we know that if 
they keep moving down the track they have been moving on and 
start up the reactor and then go to reprocessing, then we are 
facing a new and more difficult situation.
    Mr. Moore. I understand and I agree exactly with what you 
said, but I do hope that we can sit down, even if it means the 
United States alone, and begin discussions and then involve the 
other nations on a regional basis. Because, if we don't talk, 
the alternative is not a pleasant one.
    Thank you very much, Mr. Secretary.
    Secretary Powell. Thank you, sir.
    Chairman Nussle. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, I am particularly interested and even a 
little excited about some of the new initiatives in your 
budget. My view is the American people are a generous people, 
but they are a little skeptical about our foreign aid, whether 
it really gets to the people we are trying to help and, once it 
does, is it really helping them? It is a little bit like I 
think we viewed our welfare system in the past, that with good 
intentions sometimes it traps people.
    The Millennium Challenge Account is something that I am 
very interested in and particularly some of the criteria that 
you are going to use to fund that program. For example, I have 
come to believe that the ideas put forward by Hernando DeSoto, 
that property rights is a fundamental building block, are 
absolutely correct and that if you try to help people and yet 
they cannot have the government help them hold on to their 
house or their business, that really you haven't helped 
anything.
    On the other hand, if you can build on things and have 
something to pass along to your children, that not only 
provides stability to society, it provides hope where there may 
be none in a variety of places; and that has implications for 
terrorism and a number of other things.
    I guess what I really want to know is, are property rights 
going to be one of the key criteria that you are going to use 
and encouragements that you are going to use in that account?
    Secretary Powell. I don't know that we have it as one of 
the criteria for consideration of a request, but it is a good 
idea, Mr. Thornberry, and I would like to take it back and put 
it into the staffing process, because I agree entirely with 
you. To take it one step further, when you do have protected 
property rights, protected by the rule of law, and individuals 
can own property and pass property, they also can develop 
equity, and you are releasing the wealth of the nation that is 
held in the form of land and property. And we have seen what we 
can do with that here in the United States. So I believe that 
property rights should be something that we ought to look at as 
part of our program.
    Mr. Thornberry. Well, if we can help build that criteria 
into the funding mechanism, I think we should have that 
dialogue.
    It has been pointed out to me that some of the same 
countries that you all may be looking at have been part of the 
International Development Association loans, and in a 40-year 
period exactly one country has graduated or met their criteria. 
We don't want to repeat the mistakes of the past. We want to do 
better than that and lift people up, and it seems to me we are 
going to have to have different approaches to do that.
    Secretary Powell. Thank you, Mr. Thornberry.
    Mr. Thornberry. Thank you, sir.
    Chairman Nussle. Mr. Edwards.
    Mr. Edwards. Mr. Secretary, thank you for your lifetime of 
distinguished service to our country, both in uniform and out.
    I would like to ask two questions, and then perhaps the 
third one would be for written answer, if we could.
    We know that since 1992 there have been at least 14 cases 
where nuclear material, highly enriched uranium has been stolen 
from Russia, and in those cases Russian authorities found it 
and returned it. But I still think we need to do much more and 
be much bolder in protecting nuclear materials abroad from 
theft by terrorists.
    On another subcommittee I am on, I am with the Nunn-Lugar 
program. I don't think those resources can be used outside of 
Russia. But my question is, do you think, if resources were 
available, would Russia and other former Soviet states be 
willing to be more aggressive in working with us to provide 
better material protection of that nuclear material, possibly 
including major purchases by the United States of that 
material?
    My second question is this. I have the privilege of 
representing Fort Hood that you are familiar with in Texas, the 
only two-division Army in the United States. We are in the 
process of deploying 12,500 soldiers as we speak to the Iraqi 
theatre, and if first cavalry follows suit in the Iraqi theatre 
and Korea, we could have 30,000 soldiers from Fort Hood 
deployed in harm's way.
    Would you please use your influence as the President's 
chief foreign adviser to talk to either the OMB budget analysts 
or someone above that pay grade to tell them it is a horrible 
thing to be sending these troops abroad when, at the same time, 
we are giving them a stub as they get on the plane that says, 
by the way, we are cutting your children's education fund, the 
Impact Aid military education fund, dramatically. The two 
school districts that provide public education for the children 
of those 44,000 soldiers at Fort Hood will be cut under the 
administration budget proposal $31 million.
    I know this isn't under your direct authority, but 
certainly the morale of our servicemen and women is vital to 
success in our standing up to Saddam Hussein. I please urge you 
to use your influence to have that issue addressed; and I think 
the quicker, the better. Normally, we could address this 
through the normal appropriations process and kill that budget 
proposal, because most administrations, Republican and 
Democrat, have proposed it one way or another. But in this 
case, I think for morale purposes, it is hurting morale, and we 
need to deal with it quickly.
    The final question in writing perhaps is, if we have a 
clear U.S. law against using any tax dollars to fund a single 
abortion overseas, then why did the administration in fact 
line-item veto $34 million for U.N. family planning funds for 
maternal health programs and also birth control programs and 
frankly could help prevent abortions? Perhaps maybe in that 
written answer some information about how those funds have been 
used in other programs, hopefully for some of the same 
purposes.
    Secretary Powell. Thank you, Mr. Edwards.
    On the last point, I will provide you a full answer for the 
record. As you know, it is a complex issue, but we have 
reapplied the funds. Whether they will be able to actually flow 
to the accounts which are similar still remains to be seen.
    [The information referred to follows:]

       Letter in Response to Mr. Edwards Question Regarding the 
        Administration's Veto on the U.N. Family Planning Funds

                                  U.S. Department of State,
                                    Washington, DC, March 26, 2003.
    Dear Mr. Edwards: At the House Budget Committee hearing on February 
13 you asked Secretary Powell why the administration ``* * *[I]n 
effect, line item veto[ed] $34 million for U.N. family planning funds 
[UNFPA] for maternal health programs and also birth control programs 
and, frankly, that could help prevent abortions?'' In addition, you 
also requested the Department supply ``* * *[S]ome information about 
how those funds have been used in other programs, hopefully, for some 
of the same purposes.'' The Secretary indicated that the Department of 
State would provide additional information for the record, and we are 
pleased to do so.
    The Secretary determined in July 2002 that China's national 
coercive abortion and sterilization policies had triggered restrictions 
contained annually in the Foreign Operations Appropriations Act known 
as Kemp-Kasten, which states that financial and other assistance cannot 
be provided to any organization which supports or participates in the 
management of a program of coercive abortion or involuntary 
sterilization. After this determination had been made we were precluded 
from providing our planned $34 million in fiscal year 2002 funding to 
UNFPA.
    On September 30, 2002, the President directed that the funds in 
question be transferred to the Child Survival and Health Programs Fund 
with the instruction that the funds be used for maternal and 
reproductive health and related programs. Pursuant to this instruction, 
and keeping in mind the Secretary's intent to use the funds in 
countries with the greatest need and as originally envisaged for the 
purpose of family planning and reproductive health care, the State 
Department selected Afghanistan and Pakistan to receive the funds.
    On January 16, 2003, the Agency for International Development 
notified Congress in the attached congressional notification of our 
intent to fund reproductive health and maternal health and related 
programs in Afghanistan and Pakistan. The January 16 notification 
details our plan to spend $25 million on these programs in Afghanistan 
and $9 million in Pakistan. Afghanistan and Pakistan are priorities of 
the President and of current United States assistance efforts. Focusing 
on programs related to the critical reproductive and maternal health 
needs in these countries will have a significant immediate impact on 
the lives of women and their families, while also helping reshape these 
countries' health programs to promote a longterm and sustainable 
improvement.
    After the attached notification was sent to Congress, holds were 
placed on this funding. Additionally, the enactment of the fiscal year 
2003 omnibus appropriations act contained additional provisions 
relating to the use of these funds. We continue to examine the 
situation and hope to resolve the issue as soon as possible so we can 
obligate the funds to address the critically urgent maternal and 
reproductive health care needs in Afghanistan and Pakistan.
    We hope you find this information useful, please do not hesitate to 
contact us if we can be of further assistance.
            Sincerely,
                                             Paul V. Kelly,
                          Assistant Secretary, Legislative Affairs.

 UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT ADVICE OF PROGRAM 
                                 CHANGE

Program: Two countries--Afghanistan and Pakistan
Appropriation Category: Child Survival and Health Programs Fund

    The purpose of this notification is to advise that the $34 million 
transferred to the Child Survival and Health Programs Fund on September 
30, 2002, will be used for reproductive health and maternal health and 
related programs as directed by President Bush. The funds will support 
such activities in Afghanistan and Pakistan.
    In accordance with the decision by President Bush, the $34 million 
originally intended in fiscal year 2002 for UNFPA were transferred to 
the Child Survival and Health Programs Fund.
    Both Afghanistan and Pakistan are in dire need of basic health 
programs including reproductive and maternal health programs. In both 
countries, USAID has recently begun to support a program of maternal 
and child health care and family planning activities. With this 
additional funding, USAID will be able to add more programs in the 
areas of reproductive health and maternal health and related programs, 
including child survival activities, and to integrate them into broader 
basic health initiatives. This expansion of the programs will save or 
improve the lives of many thousands of women and children.
    Focusing the $34 million on Afghanistan and Pakistan will not only 
offer a greater immediate impact in these two countries, but will also 
allow USAID to reshape and expand the health programs in these two 
countries so that future health care will improve throughout both 
countries. Because health indicators in these countries are so poor and 
the needs so great, funds spent here will be very effective in terms of 
results achieved per dollar spent.
    Funding Afghanistan and Pakistan is critical because:
    <bullet> The President has made assistance to Afghanistan a 
priority in the post-Taliban period;
    <bullet> Parts of Afghanistan have maternal mortality rates that 
are the highest ever recorded in the world;
    <bullet> Both Afghanistan and Pakistan have extremely high maternal 
and infant mortality and morbidity ratios, reflecting their critical 
maternal and infant health needs;
    <bullet> Both Afghanistan and Pakistan have a dire need for 
maternal and reproductive health care, including family planning, and 
the two countries are linked together geographically and culturally;
    <bullet> Both countries face a shortfall of country-level resources 
and/or persistent neglect of the social sector (e.g., resources are 
prioritized to military spending and not to social services, including 
health); and
    <bullet> The infusion of these funds will permit the accelerated 
introduction of high quality, culturally-acceptable maternal and 
reproductive health care and child survival interventions in poor and 
underserved regions.
    Specific allocations are based in part on the absorptive capacity 
of local institutions and specific infrastructure needs. In 
Afghanistan, costs are higher due to the substantial investment needed 
to rebuild the local infrastructure for basic health services.
    The funds will be used to accelerate and expand maternal and 
reproductive health care, including family planning and child survival, 
without creating requirements for funds that cannot be sustained. 
Priority investments include on-the-ground training for midwives, 
community health workers and other medical personnel; building, 
equipping and refurbishing clinics, and provision of supplies including 
support for a broad range of family planning methods, micronutrients, 
birthing kits, prenatal, postnatal and neonatal care packages, and 
medical and surgical supplies.
    Providing these types of reproductive and maternal health care and 
child survival interventions will save lives immediately upon 
initiation of the programs. By protecting the lives and health of women 
and children, such care will be a sound base for long term health gains 
for those individuals helped during the next few years. In addition, by 
visibly increasing the quality of maternal and child health care and 
thereby demonstrating the utility of seeking medical care, the program 
will educate the population about the value of health care and 
encourage the population to seek health care in the future, which will 
lead to long-term health gains for the population as a whole.
                           program data sheet
USAID mission: Afghanistan
Strategic objective and number: TBD
Planned fiscal year 2003 obligation and funding source: $TBD
Unobligated prior year funds and funding source: $25,000,000 CSH

    After years of conflict, Afghanistan ranks near the bottom on key 
health indicators\1\:
---------------------------------------------------------------------------
    \1\ Source for most indicators is the 2002 World Population Data 
Sheet produced by the population Reference Bureau. Maternal mortality 
ratio for Afghanistan is taken from Bartlett, Linda et al, Maternal 
Mortality in Afghanistan: Magnitude, Causes Risk Factors and 
Preventability Summary Findings. November 6, 2002. CDC Press Release.
---------------------------------------------------------------------------
    <bullet> Maternal mortality rate [MMR]: 1,600 maternal deaths per 
100,000 live births;
    <bullet> Percent of births that take place in the presence of 
trained birth assistance: <10 percent;
    <bullet> Infant mortality rate [IMR]: 154 infant deaths per 1,000 
births.
    The results of a recent study\2\ by the Centers for Disease Control 
[CDC] indicate that overall maternal mortality in Afghanistan is the 
worst in Asia and ranks among the worst in the world. The CDC estimated 
Afghanistan's MMR to be 1,600 and documented a MMR of 6,500--the 
highest ever recorded--in the remote Badakshan region, one of the 
regions where this assistance will be used.
---------------------------------------------------------------------------
    \2\ Bartlett, Linda et al, op--cit.
---------------------------------------------------------------------------
    USAID allocated nearly $15 million in fiscal year 2002 to 
developing a comprehensive program of health assistance for Afghanistan 
that is helping reestablish a health infrastructure from the ground up. 
The core program provides integrated services that include 
immunization, care for childhood illness, antenatal and postnatal care, 
and vitamin A supplementation, and other basic health care services. 
The $25 million in this notification will expand the areas of coverage 
and types of care provided by the core health program.
    Midwife: Training and Clinic Program. A key barrier to health care 
is the lack of female health care providers. After years of Taliban 
rule, few trained female health care providers exist and those who 
still practice do not have adequate skills to provide life-saving 
services. Access to maternal and reproductive health care, including 
family planning, has been particularly adversely affected by the lack 
of female providers. The midwife program will expand and accelerate 
access to maternal and reproductive health care by integrating it into 
the national basic health care system.
    The funds will help develop and expand the infrastructure and 
training programs needed to increase rapidly the number of skilled 
female health care providers. The funds will cover start-up costs, such 
as curriculum development and equipment of clinical training sites, for 
the midwife training program, thereby allowing planned budgets for 
future years to manage and support the midwife training with relatively 
low recurrent costs. In this manner, the funds under this notification 
will extend high quality and culturally acceptable maternal and 
reproductive health care, including family planning, to poor and under-
served regions of Afghanistan.
    The midwife training program will: Recruit, train, and deploy 
auxiliary midwives in poor, under-served regions of Afghanistan. The 
training of these midwives is expected to take 18 months and is in line 
with the National Safe Motherhood Initiative that will expand the 
provision of essential obstetrical care and family planning services 
throughout Afghanistan. This program is expected to train at least 250 
midwives over the first 2 years, with much larger numbers thereafter. 
Each midwife is expected to serve a community of 30,000.
    <bullet> Train teams of master trainers of physicians and midwives. 
Only one such team exists currently; the additional funds will expand 
the number of master trainer teams.
    <bullet> Develop training and educational materials on midwifery, 
pre- and post-natal care, hygiene and nutrition, and family planning, 
and translate these materials into local languages.
    The clinic program will: 
    <bullet> Build, refurbish and equip clinical teaching and service 
sites. These sites will provide high quality maternal, reproductive and 
child health care, as well as supplies to support a broad range of 
family planning methods.
    <bullet> Equip at least 250 clinic sites where the trained midwives 
will be posted.
    Complementary activities. The funds will support the following 
activities to complement the clinic and midwife program:
    <bullet> Surveying: USAID will arrange to assess needs, demand and 
provider practices in order to provide a baseline for future 
government, NGO and donor support of maternal and reproductive health 
care, including family planning.
    <bullet> Integrating multiple types of care: Integrate prenatal, 
postpartum and neonatal care, as well as family planning services, into 
ongoing primary health care programs now being implemented. This 
integration will be accomplished by training of providers and by 
providing appropriate equipment and supplies.
    <bullet> Involving NGOs and the private sector: Increase access to 
maternal and reproductive health care, including family planning, and 
child health information and services through grants to NGOs and other 
private sector channels, including private midwives and pharmacists.
                           program data sheet
USAID mission: Pakistan
Strategic objective and number: Improving Basic Health Services, 399-
        XXX\1\
---------------------------------------------------------------------------
    \1\ Pakistan's health strategic objective is currently undergoing 
development and has not yet been assigned a numerical symbol.
---------------------------------------------------------------------------
Planned fiscal year 2003 obligation and funding source: $TBD
Unobligated prior year funds and funding source: $9,000,000 CSH

    Key reproductive health indicators for Pakistan have seen little 
change over the 8 years.
    <bullet> Maternal mortality rate [MMR]: 200 maternal deaths per 
100,000 live births (and estimated to be considerably higher in remote 
areas);
    <bullet> Birth assistance rate: approximately 20 percent;
    <bullet> Infant mortality rate [IMR]: 86 infant deaths per 1,000 
births.
    The funds provided under this notification supplement USAID/
Pakistan's current basic health care program restarted in fiscal year 
2002 after an eight-year hiatus. The current program includes child 
survival, maternal health, and related, basic health care services, and 
HIV/AIDS prevention activities. The funds provided under this 
notification will expand maternal and reproductive health care programs 
and related programs.
    Like the Afghanistan program, the Pakistan program is in the early 
stages of design and implementation. The additional funds will be used 
to accelerate the implementation schedule of planned activities and to 
expand their scope. For example, these funds will cover start-up costs, 
such as refurbishment and equipment, which tend to be higher than 
recurrent costs. The recurrent costs for sustaining the activities will 
be able to be covered by USAID/Pakistan's regular budget.
    The $9 million will support expansion of maternal and reproductive 
health care, including family planning products and services, to poor 
and underserved rural areas. The program will include funding of 
private sector health care providers who will work as partners with the 
Pakistani Government.
    Specifically, the funds will be used to:
    <bullet> Increase number of health care points: Expand maternal and 
reproductive health care, including family planning, to an additional 
300 health care points where the social marketing program plans to 
offer integrated health services including well-baby care, 
immunizations, nutritional supplementation, and pre- and post-natal 
care. The program will work closely with local NGOs to ensure it 
responds to the needs of the communities.
    <bullet> Train midwives: Assist the Government of Pakistan to 
launch an ambitious program to train 50,000 new midwives throughout the 
country. At present there are virtually no trained midwives in Pakistan 
and a trained attendant assists only 20 percent of births. As with the 
midwife training program described for Afghanistan, this program will 
require development of training curricula, preparation of training 
sites and training of trainers.
    <bullet> Train community health workers: Train 1,000 additional 
community health workers through local NGOS to provide basic 
information to rural communities about maternal health care and 
reproductive health care, including family planning.
    <bullet> Integrate multiple types of care: Integrate neonatal care 
and treatment into maternal and post-partum care in all health care 
points.
    <bullet> Integrate post-abortion care: Double the number of sites 
for post-abortion care (which USAID defines to include treatment of 
emergency conditions or injuries caused by abortion) to 542 health care 
sites over 2 years; integrate such care into basic health care, and 
link women receiving emergency care to family planning information and 
supplies in order to help prevent future abortions.
    <bullet> Conduct surveys: Gather health information on infant/child 
and maternal mortality and morbidity to guide the Pakistani government, 
donors, NGOs, and program implementers in making policy and program 
improvements.

    Secretary Powell. On your first question, we are in 
aggressive conversations with the Russian federation on this 
issue with respect to highly enriched uranium and other 
materials left over from the old Soviet Union. Nunn-Lugar is a 
program we support, and we are also working on other programs 
within the G-8 community to provide additional funds for the 
destruction of chemical materials, as well as other kinds of 
weapons of mass destruction materials that might leak out of 
the old Soviet Union. We have funding in our export control 
accounts for another $40 million to train people to intercept 
weapons of mass destruction, giving them the technology, the 
training to identify this kind of leakage of material and 
enhance their border controls.
    With respect to the Fort Hood system and Impact Aid, I am 
very familiar with Impact Aid. In an earlier phase of my life, 
I used to be the superintendent of schools at Fort Campbell, 
Kentucky, and I not only had a full range of titles, six 
schools that were under my responsibility, but as a father of 
three kids in military schools and communities, serving in the 
military, I am familiar with Impact Aid; and I will convey your 
thoughts to my colleagues at OMB.
    Mr. Edwards. Thank you, sir.
    Chairman Nussle. Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman; and, Mr. Secretary, 
I want to congratulate you for all time that you have taken to 
be on the Hill on both sides of the rotunda. You said at the 
outset that is your responsibility, and it is in a free and 
open society, but your answers to all my colleagues' questions 
I think really illuminate where we are now and why we may have 
to act, and I think the American people appreciate that 
forthrightness.
    I want to change gears, however, and talk entirely--not 
talk about the current time but talk about the past and talk 
about another war, the Second World War. There was a Federal 
appeals court in California that recently ruled that the 
dismissal of World War II-based damage claims against Japanese 
companies against U.S. prisoners of war, they upheld that 
dismissal. Now my understanding is that these claims, whether 
by Americans against Japanese or Japanese against Americans, 
are clearly barred by the 1951 treaty after the Second World 
War.
    Now my question arises, because a California State 
appellate court recently refused to dismiss some of these 
claims, and I wonder that if these cases, if they are allowed 
to proceed to recovery, would abrogate that 1951 treaty.
    Now I am advised that during a past Congress the State 
Department opposed any legislation that would have enabled any 
of these lawsuits in the current Congress. Then can I assume 
that you would continue to oppose those lawsuits, but in lieu 
of such lawsuits, would you support legislation that would 
maybe provide limited payments to these former POWs? So this is 
something that has come up, particularly with those that served 
and were part of the Death March of Bataan.
    Secretary Powell. Yes, sir. I am very familiar with the 
issue and have studied it on a number of occasions over the 
past 2 years. These were our folks, and they suffered mightily 
during the Bataan Death March, and I feel they are entitled to 
some compensation for their suffering.
    The difficult legal situation we find ourselves in is that 
the 1951 treaty, by its terms, resolved all outstanding claims. 
As a matter of precedent and international law, we have to 
defend that principle of the treaty trumping all other claims 
in this matter. That is the reason that the State Department 
has held firmly to the position that the treaty resolve these 
claims and these issues.
    At the same time, we have been trying to find creative ways 
outside of the law and outside of the treaty whereby a form of 
compensation might be provided to these veterans. I can't speak 
specifically to the legislation you might have in mind, sir, 
but I would certainly be more than willing and anxious to take 
a look at it, to see if it is a way forward.
    But I have to stand on the principle of the treaty 
resolving the claims. Otherwise, we would open up all sorts of 
other opportunities for claims that were settled by other 
treaties or by this treaty.
    Mr. Hastings. Thank you very much, Mr. Secretary.
    Mr. Shays [presiding]. Mr. Scott.
    Mr. Scott. Thank you.
    Thank you, Mr. Secretary. Thank you again for your service 
to our country.
    I want to add my voice to the gentleman from Texas about 
Impact Aid. If you are a superintendent--former superintendent 
of schools of an impacted school district, we don't have to 
tell you what to say, but, hopefully, you will say it to OMB.
    Mr. Secretary, I don't know if you are familiar with 
Operation Smile. It is an organization of plastic surgeons 
headed by Bill and Kathy Magee who take missions to at least 20 
different countries, providing plastic surgery for those with 
cleft lip.
    Secretary Powell. I am very familiar with it.
    Mr. Scott. That is a kind of program that, when they leave, 
they have not only impacted a few hundred children and changed 
their lives, but it is also a ton of good will that they leave 
behind. Is that something----
    Secretary Powell. And the training and capacity that they 
leave behind.
    Mr. Scott [continuing]. Is that something that could be 
funded by the State Department? It is basically a volunteer 
operation. They don't charge anything for their services, but 
there are a lot of expenses involved. Is that something that we 
could find something in the State Department to help fund? And 
if so, who would I talk to?
    Secretary Powell. Well, you are talking to the right guy. 
Let me take it back to the Department and look at it. I can't 
answer off the top of my head. It would depend on the nature of 
the organization, the nature of its status, grant applications 
and a rather complicated process. We have so many hundreds and 
hundreds, if not thousands, of organizations that would like to 
receive funding from the government in one form or another, 
from the State Department, the HHS and elsewhere.
    I am very familiar with Operation Smile and other similar 
programs. They have done a great job, especially starting in 
China, and places like that and in the Americas where they have 
done just fantastic work in giving youngsters hope.
    Mr. Scott. We will be in touch with your office directly, 
Mr. Secretary.
    On Haiti, I have a lot of different questions, and it is a 
major issue with the Congressional Black Caucus. Rather than 
talk about this now, could you meet with the Congressional 
Black Caucus Task Force? I think you will be invited shortly. 
If we can get a commitment from you to meet with them, I think 
there are a lot of different issues that we would like to 
discuss with you.
    Secretary Powell. I look forward to the invitation. My 
Assistant Secretary Paul Kelly is here, and I am sure he will 
be looking forward to it coming down.
    Mr. Scott. You mentioned your new hires. Will an effort be 
made to make sure that the new hires reflect the language 
deficiencies and ethnic deficiencies that we have? It seems to 
me that we don't have enough people that speak enough different 
languages so that we could fulfill our mission appropriately.
    Secretary Powell. We are certainly looking at ethnic 
deficiencies. We have a number of programs, the Serrano 
Scholars, Charlie Rangel's program at Howard University, things 
we are doing with the community college system and my old alma 
matter in New York City, and we are also focusing on languages 
as well.
    We still remain a nation of immigrants, and when they come 
they bring those language skills with them. We are trying to 
tap into that as well and also enhance what I believe is the 
finest language training facility in the United States, and 
that is at our Foreign Service Institute.
    Mr. Scott. In the AIDS initiative, there are some ways of 
spending the money where the money can get stretched out a 
little more. Are we making an effort to try and negotiate with 
the drug companies to get better prices?
    Secretary Powell. Yes, and we have been working with Kofi 
Annan who has done great work in this as well. There has been 
quite a bit of success in driving the cost down. At one time, 
providing a year's worth of antiretroviral drugs from somebody 
suffering from AIDS would have been $12,000 a year. It has been 
driven down now to in the neighborhood of $300 a year. But $300 
a year is still a lot of money in some of these undeveloped 
countries. It could be a whole year's worth of income. We have 
to do a better job, and we are working on it.
    Mr. Scott. Now there is some accounts that the money can be 
put in where it is leveraged and others where it is not 
leveraged--the global AIDS initiative, I believe.
    Secretary Powell. Yes. In almost all of our new programs, 
Millennium Challenge Account and others, we are looking to 
leverage through public-private partnerships where we will 
partner the government money with private money, 
nongovernmental organization money. When I went to the World 
Summit on Sustainable Development in South Africa last year, I 
talked about these kinds of public-private partnerships.
    Mr. Scott. There is some concern that some of this money 
may not be new money, it may be shifted from other accounts. 
Can we talk to somebody that can explain----
    Secretary Powell. We can provide that for the record.
    The $15 billion that the President made reference to in his 
State of the Union Address for the global initiative on HIV/
AIDS, some $5 billion of that would be reallocation of funds 
from existing accounts, and $10 billion is new. Of the $15 
billion, $1 billion would go to the Global Health Fund.
    Mr. Shays. Thank you.
    Next will be Congressman Putnam, and then we will go to 
Congressman Thompson.
    Mr. Putnam. Thank you, Mr. Chairman.
    Secretary Powell, it is a pleasure to have you here; and, 
of course, it is always nice to be midway on the questioning 
standpoint, because all the big ones are out of the way.
    I want to talk to you a little bit about something, though, 
that is a larger issue impacting this country, and that is the 
demographics of the countries that represent emerging threats. 
Iran has somewhere around two-thirds of their population under 
20 or 25. The Gulf States, some of them are 45-percent under 
the age of 15, presenting what I believe is a long-term 
generational conflict, where half of their economic potential 
has been taken off the table by the exclusion of women and the 
young men who remain, as we have talked about earlier with 
regard to Africa, are restless and rife for trouble.
    How through our public diplomacy channels are we reaching 
that generation in a sustained, meaningful way?
    Secretary Powell. There are a number of things we are 
doing, Mr. Putnam. One of our efforts is working in a public-
private partnership with Radio SAWA. We are starting to tailor 
some of our broadcast efforts, both in the government and 
working with media outlets outside the government to talk to 
that younger population. I am encouraging my ambassadors, and 
the work I do in talking to people I am increasingly trying to 
get into the younger population. The largest audience I have 
had as Secretary of State is when I went on MTV and spoke to 
350 million people at one time, most of whom were under the age 
of 18, I would guess.
    The new partnership initiative that we have created for the 
Middle East will talk about the education of young people and 
turning young people on, to not just a religious education, but 
an education that will get them a job. The demographic facts 
that you laid out a moment ago are absolutely right on. These 
populations are young, they are restless, they are in this 
information age where they can see what is happening elsewhere 
in the world, and they want to know how do I get a part of it, 
how can I be a part of that world, and is my government, is my 
society, is the system in which I am living in tune with the 
world that I can now see instantaneously, and am I being 
prepared for it?
    There are countries in the area that you touch on where 
they still haven't come to the realization that you cannot 
disenfranchise 50 percent of the population because they are 
women; and then among the male population, those who are coming 
up, you don't give them an education that is relevant to the 
kinds of jobs you are going to need to have being performed. We 
are now drilling on this in all of our conversations with 
nations that fall into that category.
    Through our public diplomacy efforts, through our 
partnership efforts with respect to education, in our efforts 
with the Millennium Challenge Account, we are directing all of 
these efforts toward younger and younger elements of the 
population who are still in their formative stage of 
development, when they are still thinking, do they become 
radical or do they see a future because there is a job waiting 
for them? Coming from a society and a political system that is 
committed to democracy, not to ripping off the economy and 
ripping off the wealth of the Nation, and are committed to 
helping them enter into an economic system that will allow them 
to provide a roof over their heads of their family members and 
to let them have a bright future.
    If we don't do that, then they will all be going to 
terrorist camps somewhere.
    Mr. Putnam. I can't imagine a more important long-term 
mission for State and for diplomatic efforts than speaking to 
that emerging population.
    Are we doing an adequate job in our own country of 
preparing young people and educating young people with the 
skills that they need to be good Foreign Service Officers and 
good members of your diplomatic corps with the language skills 
and training, beyond just French and Spanish that most high 
schools offer? Are we preparing them for the languages and the 
cultures that represent the greatest need for our diplomacy?
    Secretary Powell. Probably not in the high schools of 
America. I don't think we spend enough time on geography and 
social studies and language, beyond basic Spanish and French.
    At the same time I am enormously impressed by the 
youngsters, and not so young people that take our Foreign 
Service exam. They come in committed, and to just take that 
exam you have get to have a heck of a background to even think 
you could pass it. You have to develop quite a bit of 
experience and prepare yourself educationally and 
motivationally to working in foreign fields and taking on the 
arduous nature of Foreign Service, and we are getting a heck of 
a turnout. We are getting tens of thousands of youngsters who 
are bringing those skills to the table.
    Either I or Deputy Secretary Armitage swear in every single 
new junior officer class. We believe it is that important that 
I ought to swear them in, or Rich will swear them in if I am 
not around. Before I go up to the ceremony and talk to these 
youngsters, they just look like soldiers from my old career. 
Their eyes are burning and they have got smiles on their faces. 
I look at the files of all of these youngsters before I go up 
and swear them in just to see what the group is like, and they 
will range in age from 25 to 50. Some will come having had full 
careers elsewhere. They may be retired military. They may be 
coming out of corporate life after a successful career and want 
to change and serve after the age of 45. They bring all kinds 
of background experience and very often some considerable 
language skill into the Foreign Service.
    Mr. Shays. We are going to go from Congressman Thompson to 
Congressman Brown.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for being here. I also 
want to thank you for your great service. Although you said it 
was part of your job to be here, I am here to tell you that, 
with the 85 percent poll numbers that you have, you can be 
anywhere that you want.
    I would like to ask you a little bit about Afghanistan and 
the alarming reports that we are getting from there. I am 
heartened by your words in your statement about the progress 
that we are making and the good things that are happening, but 
it seems that we become more and more vulnerable over there, 
and there is a great deal of instability. And I think that 
everybody would believe that President Karzai has provided some 
measure of stability in the area, and now there are rumors that 
he may not seek a second term. I would like to get an idea of 
what that means to you and what pieces aren't effectively 
working over there. How can we fix those, and what sort of 
costs are going to be associated with that?
    Secretary Powell. I don't know what President Karzai might 
or might not do. I heard the same reports, but let me just say 
that he has been a tremendous leader. He was the man we needed 
at the time we needed such an individual. I am so pleased he 
took the risks associated with assuming a leadership position, 
and he has done it very well. I hope he takes a long time to 
decide what he is going to do next, and perhaps I will have a 
conversation with him if he is looking for any advice.
    With respect to the situation in Afghanistan, it is still 
fragile, it is still dangerous, and it is especially dangerous 
in the southeast area, as you get toward the Pakistan border 
and where you find the border is linked up, of course, with the 
tribal areas on the other side of Pakistan, which have never 
been under the same degree of control that other parts of 
Pakistan are. It is still dangerous. You still see American 
soldiers hunting people down in those caves, trying to get them 
out. There are still bombs that go off from time-to-time. We 
are still taking casualties, and we should never forget that. 
The casualty level hasn't been great, although every casualty 
is great for that family. I think slowly but surely we are 
imposing our will and pulling out these al Qaeda remnants, but 
it will take a long time.
     In the 2004 request we have $658 million for Afghanistan. 
When you go back to the 2001 and 2002 Emergency Response Fund 
and supplementals in 2002, and in the 2003 request, we have an 
investment of some $1.66 billion. We are going to be there for 
a considerable period of time.
    When the President went in, he said he would stay with it 
so we don't let Afghanistan fall back to tribalism and fall 
back to being a failed society. We had an obligation when we 
went in, just as we will have an obligation if it is necessary 
to go into Iraq.
    Mr. Thompson. Considerable time and considerable dollars.
    Secretary Powell. Considerable time and considerable 
dollars for years.
    Mr. Thompson. Can you give us any idea of what you think 
our long-term commitment in Iraq will be, if we do go in, after 
the war effort, our stabilizing force and what the cost of that 
is going to be?
    Secretary Powell. I cannot, sir. I can't tell you because I 
think over time the nature of our commitment and the nature of 
our presence will change. Certainly, in the first phase, it is 
military. We will be going in there with soldiers to take out a 
despotic regime, cut out the leadership of this regime, and 
build on the institutions that are remaining. There will be 
institutions remaining and there is a source of money. It is a 
wealthy country, but its wealth has been misspent. Initially 
there will be a strong military component to it. I know that 
the administration will move as quickly as we can to start 
shifting responsibilities to civil organizations of the Iraqi 
society as well as international organizations, nongovernmental 
organizations, and other U.S. agencies coming in to help.
    I know the military is going to want to get out of there as 
fast as they can and not get tied down with another large 
commitment. We shouldn't deceive ourselves that some military 
presence may be necessary for a period of time to ensure that 
there is stability in that country and it doesn't break up.
    I cannot give you an estimate of how many troops that would 
take or for what period of time. Ultimately, and as quickly as 
we can, we want to get it back into the hands of the Iraqi 
people with a responsible government representing all the 
people, living in peace with its neighbors, and then the United 
States can pull out. It will give us a chance to do other 
things in the region in the absence of that kind of regime. We 
won't need that many U.S. troops throughout that part of the 
world.
    Mr. Shays. Thank you. We are going to Mr. Brown and 
Congressman Emanuel. Congressman Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being in this place at this 
time. We are grateful for your support. The question I want to 
ask is regarding our position with Iraq and the war on 
terrorism. What is the mission of the U.N., and what can we do 
to bring accountability to the U.N.? Must we take on the 
enforceability of the U.N. by ourselves?
    Secretary Powell. Right now the violations that Iraq is 
committing are against U.N. resolutions. The U.N. remains an 
important body for stating the will of the world, the will of 
the international community, the 191 nations in the U.N. We 
must continue to support the U.N. because it does reflect the 
will of the international community.
    We have been working hard in recent years to make the U.N. 
a better managed organization and a more accountable 
organization. I think we have been able to satisfy the Congress 
that there has been improvement in the management of the U.N. 
and I think in response, Congress, with considerable wisdom, 
allowed to us pay most of our arrearages to the U.N. I think we 
are on a much better footing with respect to the leadership and 
management activities within the U.N., but it is still an 
organization that has a large number of members. Increasingly 
these members are democratic societies that have to respond to 
the passions of their people and the views of their people.
    Life doesn't get easier the bigger an organization becomes 
and the more democratic it becomes. It requires leadership on 
the part of the United States to set down principles, tell 
people what we believe in, and then work, debate, fight, 
disagree, agree, compromise, find consensus among the 
membership of the U.N. to move forward. That is what diplomacy 
is about.
    It is a big change in my life from being chairman of Joint 
Chiefs of Staff, when I said do it. Now I am Secretary of State 
I have to say, come on guys, let's talk. That is what diplomacy 
is all about. That is what democracy is all about. Sometimes I 
get them to agree easily, sometimes I can't get them to agree 
at all. That is what diplomacy is about and that is what 
alliance management is all about.
    The U.N. is a very important institution for world order 
and for world peace. It is one of the reasons the President 
also made the decision which he announced at his speech last 
September 12 to rejoin UNESCO because it is doing important 
work that we should be a part of.
    Do things happen in the U.N. that annoy the devil out of 
us? Yes. I don't like seeing the Commission on Human Rights 
chaired by Libya, or the possibility that Iraq, because of an 
alphabetical rotation, will suddenly end up as Chair of the 
Conference on Disarmament at the same time we are trying to 
disarm it. You get these anomalies, unacceptable things that 
occur when you have 190 nations pulling together.
    Mr. Brown. I am grateful you are wearing this new hat and 
thank you very much for being here today.
    Mr. Shays. Congressman Emanuel and Congressman Wicker will 
be next.
    Mr. Emanuel. Thank you, Mr. Chairman.
    Mr. Secretary, as I remember, you started off with your 
enthusiasm to be here in front of the committee. If the choice 
was between the French Foreign Minister and the Budget 
Committee, I too would be enthused to be here. Never has the 
House Budget Committee looked so good.
    Secretary Powell. I will be seeing him tomorrow.
    Mr. Emanuel. Say hello from all of us.
    Secretary Powell. I shall.
    Mr. Emanuel. I have one statement and a set of questions 
around the nonproliferation area. Though a supporter of if we 
have to militarily move to deal with both Saddam Hussein and 
the weapons of mass destruction, I would hope that before any 
firing is done that NATO does not become the first casualty of 
that possible military conflict. And I would also hope that 
that conflict does not end up doing to NATO what Russia and the 
Soviet Union could not do in 50 years, we do in one conflict.
    As a supporter of the administration, if we end up having 
to have a military effort, I do, I really hope that all effort 
is expended to stitch back what has been an important 
partnership for America. We are secure because of NATO, and I 
think one of the worst things that would happen, finally 
expanding it eastward and having worked on that Poland, 
Hungary, and Czechoslovakia--and finally after 50 years and 
they are getting in, we shut the lights off and shut the door 
on them. I think there would be nothing crueler to people of 
the former Eastern Bloc.
    There are some 40 to 50 research reactors around the world 
with materials very loosely secured. And does the State 
Department have any plan or are you considering one to secure 
these materials? And anything beyond what is in your 
nonproliferation antiterrorism- and antimining-related programs 
budget?
    And second, although it is in DOD, a philosophical 
question, your thoughts about using Nunn-Lugar as a model to 
expand it to deal beyond just the old Soviet Union and Ukraine 
but to other areas, given the conflicts and what we see both in 
between Pakistan and India and obviously in the Korean 
peninsula.
    Secretary Powell. On the first question, with your 
permission, Mr. Emanuel, what I would like to do is go and 
consult with my colleagues at Defense and Energy, and give an 
answer for the record with respect to what plans we might have 
or might want to come up with with respect to controlling the 
material that comes out of the many research reactors that are 
around the world. I especially would want to talk to Spence 
Abraham about that before giving you an answer.
    [The information referred to follows:]

   Letter in Response to Mr. Emanuel's Question Regarding the United 
              States' Efforts to Secure Nuclear Materials

                                  U.S. Department of State,
                                    Washington, DC, March 26, 2003.
    Dear Mr. Emanuel: This letter responds to the question you asked 
Secretary Powell in the hearing on the Department of State budget 
priorities for fiscal year 2004 on February 13, 2003, concerning U.S. 
efforts to secure nuclear materials at research reactors worldwide. The 
Secretary has asked that I respond on his behalf.
    The U.S. is involved in a number of programs to enhance physical 
security at research reactors. For reactors with U.S.-origin nuclear 
material, the U.S. dispatches interagency teams to the countries on a 
periodic basis to hold discussions with their governments on their 
regulations and oversight of physical protection at nuclear facilities, 
examine the physical protection arrangements, make recommendations and, 
as needed, provide assistance in making necessary upgrades. We are 
working with the managers of this program and the interagency to 
enhance this effort.
    The U.S. also has a longstanding policy to convert research 
reactors from the use of high enriched uranium (HEU) fuel to the use of 
low enriched uranium (LEU) fuel, which is of substantially less 
proliferation and terrorism concern. So far, over 30 foreign research 
reactors have been converted to use LEU fuel. In support of this 
program, the U.S. is accepting back spent research reactor fuel 
containing U.S.-origin nuclear material in order to promote conversion. 
Shipping this fuel to the U.S. and converting the reactors to low 
enriched uranium fuel reduces their attractiveness as a target for 
terrorists.
    The U.S. is also working with Russia and the International Atomic 
Energy Agency (IAEA) on a program similar to the one in the U.S. to 
ship HEU spent fuel from Soviet-era research reactors located in third 
countries to Russia for management and disposition. In cooperation with 
the Russian and Serbian governments, the U.S. led a successful effort 
to move a stockpile of fresh HEU, which represented a possible 
terrorist target, from Serbia to Russia for down-blending.
    The JAEA has a program called the International Physical Protection 
Advisory Service (IPPAS) under which member states can request a 
multinational team to evaluate its physical protection infrastructure 
and make recommendations for improvements. The U.S. actively supports 
this program and often provides technical and financial support to 
implement needed upgrades. This is one part of the IAEA's Action Plan 
to Combat Nuclear Terrorism. The plan also assists IAEA member States 
in other ways, for example, to improve their systems of accounting and 
control for nuclear material, to do a better job of stopping illicit 
trafficking and improving controls on radioactive materials. The U.S. 
has so far contributed $8 million to funding this Action Plan.
    In addition to these programs, the U.S. also has an extensive 
program to ensure the adequate physical protection of nuclear material 
at facilities in Russia and the new independent and Baltic states, 
including research reactors.
    Even as I write this letter, the U.S. is working in Vienna at the 
DKEA on two complementary tracks to help reduce the risk from nuclear 
and other radioactive materials. One track has as its goal amendment of 
the Convention on the Physical Protection of Nuclear Materials to 
extend its coverage to nuclear materials in peaceful uses during 
domestic transport, use and storage. This amendment process will result 
in an international legal obligation to maintain adequate physical 
protection at civilian research reactors and other civilian nuclear 
facilities. The second track is intended to improve controls on 
radioactive sources in civilian use, especially those that are the most 
dangerous, and thereby reduce the risk of radiological terrorism. 
Secretary Abraham announced Monday that the United States would provide 
$3 million to help states bring dangerous sources under control and 
then maintain them safely and securely. This will help to augment the 
IAEA-Russia-U.S. program that will accomplish the same goal in the new 
independent states.
    For the future, we are beginning to promote enhanced efforts to 
regulate, track, secure, and safeguard biological, chemical, nuclear 
and radiological materials and the equipment and know-how needed to 
misuse them. Among the goals of this effort are to secure the storage 
facilities and enhance transportation requirements for dangerous 
materials and to remove dangerous materials from insecure facilities or 
regions. We have substantially increased our funding request for fiscal 
year 2004 for the Nonproliferation and Disarmament Fund in order to 
address the priority activities of this new initiative.
            Sincerely,
                                              Paul V. Kelly
                          Assistant Secretary, Legislative Affairs.

    Secretary Powell. With respect to NATO, we are having a 
rough spot right now. I still have optimism that will solve the 
Turkish support problem in the next several days. I hope that 
will be the case. This alliance has weathered a lot over the 
last 50 years. It has faced some tough issues; it usually finds 
a way to solve them, sometimes not. It won't come apart. It 
won't cease to exist or be destroyed. It links North America to 
Europe. It is a great trans-Atlantic organization that will 
continue to have value for the nations that have been there 
from the beginning as well as the new nations who desperately 
wanted to be members.
    Why did they want to be members so badly? Why? I remember 
in 1989 I was giving speeches when I was just made chairman of 
the Joint Chiefs of Staff before the cold war ended, and I kept 
telling my former generals when the cold war starts to end, all 
of these nations are going to want to be in NATO. They will 
want a branch transfer from the Warsaw Pact to NATO. They said, 
how could you say such a thing? I said, because they want to be 
part of an alliance that includes America. The only alliance of 
a security nature that includes America is NATO. NATO will 
continue to serve a useful purpose for many years and decades 
into the future.
    Did I miss one Mr. Emanuel?
    Mr. Emanuel. The Nunn-Lugar bit. That could be answered 
later.
    Secretary Powell. No, that is easy. I think Nunn-Lugar is a 
great program. It is being supplemented by other programs in 
our nonproliferation efforts. I would say I would have no 
reservation about thinking of ways to expand the Nunn-Lugar 
concept to cover other nations. We may have a need, if and when 
we get into Iraq, to start destroying all the materials that 
are in Iraq.
    Mr. Emanuel. Thank you.
    Mr. Shays. Let's get going. Thank you very much. We will go 
to Congressman Wicker and then Congressman Baird. I thank you, 
Congressman Emanuel.
    Mr. Wicker. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you once again for the time that 
you have allotted. With all you have going I know that you 
could have begged off and asked for an hour or something like 
that. We probably would have understood. Very important 
testimony today, and I really appreciate it.
    I know from my previous opportunities to hear you testify 
and from hearing you in various forums that you deeply love 
America. And I love America. And it sometimes doesn't compute 
with people like me and my constituents that many in the rest 
of the world don't feel that way. And I am sure you have given 
a lot of thought to this.
    I would like to ask to you comment about that in the 
context of what we do after Iraq--when we are still engaged in 
the larger war. After Afghanistan, certainly there was going to 
always be the larger war which we are still engaged in. Tell us 
the effect of what I am sure will be a successful military 
conclusion on the region, the effect in the short term, the 
effect in the long term, and the effect globally. Will this 
give rise to additional acts of Islamic fundamentalism?
    I noted yesterday a news account saying that members of 
this administration had expressed concern that we are losing 
what we had accomplished over perhaps three decades in terms of 
nuclear nonproliferation, with relatively small nations 
attempting to get a nuclear capability. And we are going to 
have a real problem stopping the global spread of nuclear 
weapons. And in that context, by my calculations we are 
spending .2 percent of our gross domestic product on foreign 
assistance. Is that the way you add it up? Is that going to be 
enough over the long haul?
    And then finally, Mr. Secretary, how will we know when we 
have won the war on terrorism globally?
    Secretary Powell. On the first question with respect to 
fundamentalism, what might happen with the conflict in Iraq, I 
suspect initially there will be some disturbances. There are 
some people who will respond to any such conflict with 
demonstrations and other acts that might put some of our people 
at risk, and there will be expressions of anti-Americanism. I 
think if we do it well, and we do it successfully, and if we do 
it as I know we will do it, with a minimum loss of civilian 
life or collateral damage, we are not going to destroy Iraq in 
order to build Iraq. We are going in to take out a despotic 
regime if we have to go in.
    But I think we can rapidly turn opinion around when people 
see what America does once it is faced with that kind of a 
challenge. We have a pretty good record over the last 60 years 
of leaving places a lot better than we found them when we went 
in.
    It will be the fourth time in a period of 12 years we have 
gone into a Muslim country, a Muslim situation, not to conquer, 
not to take over, not to claim sovereignty, but to help Kuwait, 
Kosovo, Afghanistan, and then Iraq. I think it would give us 
opportunities to change this impression of America.
    I also have to say that as I think about this, and I see 
expressions of anti-Americanism coming from a lot of these 
fundamentalists, fundamental spokespersons, that there still 
are lines outside of every one of my consular offices around 
the world. What for? They want a visa. They want to come to the 
United States. In fact, one of the major problems I have is the 
visa system. Muslim countries complaining that we have made it 
too hard to get visas to come to the United States because of 
our efforts to secure our borders. People are afraid we are 
going to close our doors. So the new slogan in our consular 
affairs operation is: Secure borders, open doors. America is 
open. Come on. We want you to come our hospitals, our schools, 
Disneyworld, Las Vegas, if that is of interest to you. We want 
you to come to America. People want to come to America.
    So the problem we are having right now is people think we 
are getting too tight with respect to who can come in. Why are 
you fingerprinting our people? Why are you making it harder for 
them to go to your schools?
    There is this residual feeling of support, sometimes 
affection, sometimes jealousy, sometimes resentment, sometimes 
admiration, it is all mixed up, for things American and for 
Americans.
    Right now the problem we are having has to do more with 
policies that we are applying rather than we are Americans. We 
generate resistance because of some of the things we believe we 
must do with respect to Iraq, and because some people believe 
we have not done enough with respect to the Middle East peace 
process, and they are expecting to us do more. We will be doing 
more in the near future.
    There is a residual of support and affection for the United 
States that I think we can get into once we deal with some of 
these policies that are objected to by people in the world.
    Mr. Shays. Mr. Secretary, we are going to be getting you 
out at 12:30 as promised. So we have Congressman Baird, 
Congressman Bonner, and then Congressman Neal, and I think that 
is going to be it. Congressman Baird.
    Mr. Baird. Mr. Secretary, thank you for being here and 
thanks to all your people who serve this country so well around 
the world. I will be fairly brief because I want you to have 
time to answer other questions.
    Let me give you several questions, pick them, and make sure 
we stay within our 5 minutes. First of all, the Millennium 
Challenge Account, I think there was a recent study by the 
Center for Global Development suggesting that there may be in 
our efforts to make sure that money is well targeted--and I 
support that--there may be countries who are doing well in 
terms of many of the democratic institutions, rule of law, et 
cetera, but don't have the money to fund on the human capital 
investments, and they may paradoxically be ruled out of the 
very kind of funds MCA is designed to target.
    Real quickly, a second issue. As I look at the countries 
that receive our foreign aid, too often it seems to me we are 
spending on countries that have so many problems and ignoring 
our friends. If I were to contrast Colombia with Costa Rica, 
for example, I would spend a lot more money in Costa Rica which 
has been the bastion of democracy in Central America for years, 
and I might spend less in a country with human rights abuses 
and narco-traffickers, et cetera.
    Third, I am greatly concerned about State Department 
policies and financial spending by this country being set by 
people who are not confirmed by the U.S. Senate, members of 
nongovernment organizations, especially strident anti-choice 
voices associating with U.S. State Department missions and 
setting government policy, particularly regarding family 
planning and birth control, as Mr. Edwards raised.
    And, finally, I hope you can talk a little bit what--if not 
now at some point--what we can do to make our spending more 
effective. We spend more in dollars than almost any other 
country in the world, but I am not sure we get the clout out of 
it in terms of the choices we make with the spending. I welcome 
your responses to any of those.
    Secretary Powell. On the MCA, there is a problem we will 
have to work our way through, there is a challenge. Some 
nations are so committed to democracy and doing everything we 
ask of them, but they still have needs, but they are doing well 
enough so they are not quite as poor as those that we are going 
to put in the first tranche. And we are going to have to find a 
way to balance that, either using our other assistance accounts 
or some public/private partnerships. In the first instance as 
we start the MCA, we really need to focus on those that have 
the lowest GDP but have made the commitment to get them started 
up the road to success. I understand the problem.
    Second, I think with regard to Costa Rica and Colombia, we 
had to make some judgments in all of these instances. In the 
case of Colombia, this was a problem that was directly 
affecting us here in the United States with respect to narco-
trafficking and narco-terrorism. That is why there has been 
such an investment in Colombia and perhaps not as much in Costa 
Rica, which has been a bedrock of stability in the region for 
many years.
    With respect to anti-choice NGOs, I think you are quite 
familiar with the policy of the administration and the policy 
of the President with respect to these issues. We try to 
operate our family programs and reproductive choice programs in 
a way that is consistent with the President's policies and 
philosophies.
    Finally, I want to make spending as efficient as possible. 
We are trying to constantly cut down on overhead and make sure 
no money is being lost as it dribbles through the pipeline as 
it gets out to where it is needed.
    Mr. Baird. This is also just a question of do we invest it 
in a way that when people see the investment, they say that was 
thanks to the United States of America? I was in Guatemala a 
while back and went to a place where $2,000 would have helped 
people build a school and they would have said thanks to 
America for the next three generations.
    If we can spend our money in ways that are clearly stamped, 
USA got you this, and it matters to you, I think we will 
benefit.
    Secretary Powell. We try to trademark and stencil as much 
as we can.
    Mr. Baird. Thank you, Mr. Secretary.
    Mr. Shays. We are going to go to Congressman Bonner and 
close with Congressman Neal.
    Mr. Bonner. Mr. Secretary, at the risk of being redundant, 
rather than just thank you for appearing before our committee, 
I want to thank you once again for answering the call to public 
service and also ask that you pass that thanks along to your 
wife.
    Secretary Powell. Thank you, I will.
    Mr. Bonner. You know, Congressman Davis and Congressman 
Lewis, before he went to Georgia to try to help them out over 
there, we were natives of Alabama and we are proud that she is, 
too. So please give her our best.
    Secretary Powell. I shall indeed. Thank you Mr. Bonner.
    Mr. Bonner. I was pleased to note that in the President's 
budget there is funding adequate for the Child Survival and 
Disease Programs Account. I come to this job following 
Congressman Sonny Callahan, who gave birth to this idea when he 
chaired the Foreign Operations Subcommittee on Appropriations. 
It was Congressman Callahan's belief that while there may not 
be popular support with the American people for increased 
foreign aid, there is a great deal of compassion, and anytime 
we can help the children of the world, that we are doing so 
with the support of the American people.
    I am also pleased to note that there is no funding 
requested for the Korean Peninsula Energy Development 
Organization, KEDO, in view of North Korea's resumption of its 
nuclear weapons program. My question is: If North Korea were to 
negotiate in good faith tomorrow and cease its weapon 
activities, would the United States likely revive this 
assistance program? And if so, what level of funding would be 
contemplated and would stronger conditions be placed on this 
aid?
    Secretary Powell. If we were to get into a discussion with 
North Korea, and I expect sooner or later there will be a 
discussion with North Korea, about how to move forward and move 
away from the situation we now find ourselves in, it would have 
to be a comprehensive solution that would deal with the basic 
problem. That is North Korea's development of nuclear 
capability.
    There are other issues we have with North Korea as well: 
sale of missile technology; sale of missiles themselves; and 
the large army that it maintains that is essentially helping to 
bankrupt the country.
    With respect to the nuclear issue, there would have to be a 
comprehensive solution that would have to deal with all of the 
technologies that they have been exploring for the development 
of nuclear weapons.
    I think as part of that comprehensive solution and dealing 
with that, we would have to say to the North Koreans, we 
understand that you have energy needs, which is what they say 
was the reason for them moving down this road. KEDO and 
providing HFO fuel was one way to satisfy that requirement. 
Lightwater reactors was also part of the agreed framework to 
satisfy that requirement.
    I think as we looked into the future we would have to make 
a judgment about what is the best way to satisfy their 
legitimate need for power and also to repair the grid that we 
have to accept such power. Whether the answer remains 
lightwater reactors and HFO supplement or something else in the 
field of energy, I think is an outstanding question, which I am 
not prepared to answer today. There would certainly be a need 
to provide energy to North Korea, part of a comprehensive 
solution, and there would be a cost associated with that, not 
only for us but for our partners in the region who are now our 
partners in KEDO.
    Mr. Bonner. Returning to the crisis at hand with regard to 
the situation in Iraq, it appears that NATO is going to deny 
military assistance to Turkey, a NATO member, because of its 
cooperation with the United States preparation for the possible 
war. It was gratifying that Turkey, despite difficult internal 
politics, agreed to allow the United States to utilize its 
bases. I noted in the budget that there is $200 million 
requested for Turkey based primarily on its role as a frontline 
state in the Afghanistan conflict. In view of Turkey's 
frontline role in Iraq as well and the potential denial of NATO 
support, will consideration be given to enhancing aid to Turkey 
either in the '04 bill or in a supplemental?
    Secretary Powell. Yes. On your first point, I don't think 
it is a given that NATO will deny Turkey. I am hopeful that 
will find a way forward.
    Mr. Bonner. My last question is regarding NATO. Does the 
denial of support, if it continues, to a member nation 
undermine the United States' future participation in this 
organization? I think you have addressed this in other ways.
    Secretary Powell. I think it would be a very bad outcome. I 
think it would to some extent undermine NATO to the extent that 
a member nation came before it and said, look, no war has 
started, we understand that, but in anticipation that we might 
have a threat, is it unreasonable for to us come before our 
allies and say give us some help? And 16 of the allies, 15 plus 
the requesting country say yes, and 3 allies say no, because 
this would look like we are condoning war, or we are ready to 
get into the war. That was an unreasonable position for those 
three nations--France, Germany, and Belgium--to take. 
Luxembourg also had been in that position but realized it was 
not the correct position and moved over. But 16 of the nations, 
to include the requesting country, believe that Turkey has a 
legitimate need for this support, these services. That is what 
being a member of an alliance is all about.
    I hope that we will find a way for the other three nations, 
or two at least of the other three nations, if we have to 
handle it in a slightly different manner, come to that 
conclusion and will provide to Turkey the support that it needs 
under the NATO framework. If that turns out to be impossible, 
we will still find a way to make sure that Turkey is not 
unsupported.
    Mr. Bonner. Thank you again.
    Mr. Shays. Congressman Neal.
    Mr. Neal. Thanks, Mr. Chairman. Four and a half minutes and 
I will yield the last 30 seconds to my friend, Mr. Lewis.
    Mr. Secretary, you are held in the highest personal and 
professional regard here and across the country. You have 
mentioned a very ambitious agenda: more security support for 
our embassies, more hiring, more foreign aid, rebuilding Iraq, 
rebuilding Afghanistan. And at the same time, we are talking 
about permanently repealing the estate tax, companies that move 
offshore to Bermuda for the purpose of avoiding corporate 
taxes, a dividend proposal that by all estimates would cost 
$370 billion, and coming now, deficits again as far as the eye 
can see.
    Mr. Gutknecht asked a very pertinent question earlier: How 
are we going to remain consistent to the principle of a 
balanced budget and pay for all of this?
    Secretary Powell. Sir, there are needs that have to be met 
by the American people in foreign assistance and our domestic 
programs.
    Mr. Neal. Which I agree with.
    Secretary Powell. The President believes that the economic 
plan he has put forward, if enacted, recognizing that we are in 
a deficit situation for some time, is the best way to approach 
this problem. And on matters of tax policy, I will have to 
yield to my colleagues in other parts of the administration to 
make the case to the Congress that this is the correct way to 
move forward.
    Mr. Neal. Fair enough, Mr. Secretary. On a positive note, 
if you were to speak to the British Government, as I am sure 
you are, or the Irish Government, they would say that it was 
the American dimension that has brought the Irish peace process 
to the point that it has reached This was a great achievement 
for America in terms of international diplomacy, and bipartisan 
in nature, Bush I, Clinton, Bush II. Could you comment quickly 
on where that stands, knowing that your plate is pretty full 
with Iraq and Afghanistan as well?
    Secretary Powell. Follow it very closely. Ambassador 
Richard Haass is my special envoy, the President's special 
envoy to the process. He was in the area last week. He stays in 
very close touch with all of the different elements that have 
an interest in this, all the different factions. We are working 
with the parties to see if we can get this big bang going. We 
still have some optimism that we might be able to find a 
solution. It is a difficult situation, but I have somebody who 
handles this who is an expert and is well regarded.
    Mr. Neal. He is good to work with. Thanks for your personal 
attention.
    I yeild the last 30 seconds to Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman, for being so courteous 
and so patient. Thank you, my friend and seat mate, Mr. Neal. 
Mr. Secretary, it is good to see you.
    Secretary Powell. Good to see you again, sir.
    Mr. Lewis. Welcome. I don't have a question but I just want 
to take a moment to thank you for your extraordinary 
contribution to our own country and to the world community. In 
addition, I am happy to hear you say that you are going to use 
some of your resources to make the State Department, embassies, 
and consulate look more like America and more like the world. 
Thank you.
    Secretary Powell. Thank you, Mr. Lewis.
    Mr. Shays. Before having you adjourn, Representative 
Spratt.
    Mr. Spratt. Mr. Secretary, I am sorry that I could not be 
here for your opening statement. I did get to hear a lot of the 
examination. Let me say since I followed your career in my 20 
years here, that you have served with distinction in every 
position of leadership you have held and not the least the one 
you hold right now.
    What you are asking for is a fairly tall order. It is an 
11.3-percent increase and $2.9 billion over last year. We will 
do our best to provide it, not least because we believe that in 
your hands it will be handled with good stewardship.
    Secretary Powell. Thank you very much, Mr. Spratt. Thank 
you for the support that you have provided to me personally 
through many incarnations over the last years.
    Mr. Shays. Mr. Secretary, I will say as a new member, the 
questions of the committee I thought were outstanding, I 
thought your answers were outstanding. Thank you very much for 
being here. Our prayers are with you, sir.
    Secretary Powell. Thank you, Mr. Shays.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
